<html>
<title> - STATE DEPARTMENT REAUTHORIZATION: AN OPPORTUNITY TO STRENGTHEN AND STREAMLINE U.S. DIPLOMACY</title>
<body><pre>[Senate Hearing 114-786]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-786

                    STATE DEPARTMENT REAUTHORIZATION:
                      AN OPPORTUNITY TO STRENGTHEN
                     AND STREAMLINE U.S. DIPLOMACY

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MARCH 8, 2016

                               __________



       Printed for the use of the Committee on Foreign Relations
       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
       

                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-576 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7413041b34170107001c1118045a171b195a">[email&#160;protected]</a>                        
                         
                         
                                                


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1


Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     3


Higginbottom, Heather, Deputy Secretary of State for Management 
  and Resources, U.S. Department of State, Washington, DC........     4

    Prepared statement...........................................     6

  Additional Questions Submitted by Members of the Committee

    Questions from Senator Flake.................................    36

    Question from Senator Gardner................................    39

    Questions from Senator Perdue................................    40

    Questions from Senator Barrasso..............................    52


                             (iii)        

  

 
                   STATE DEPARTMENT REAUTHORIZATION:
                      AN OPPORTUNITY TO STRENGTHEN
                     AND STREAMLINE U.S. DIPLOMACY

                              ----------                              


                         TUESDAY, MARCH 8, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Perdue, Isakson, 
Barrasso, Cardin, Menendez, Shaheen, Murphy, and Kaine.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman.  The Foreign Relations Committee will come to 
order.
    I want to thank Deputy Secretary Higginbottom for continued 
service to our country and your testimony today.
    As chairman, one of our priorities has been to revive the 
State Department reauthorization process. I want to thank 
Senator Menendez for beginning that. I think it is critical. It 
is a critical oversight tool and a healthy exercise to take an 
annual look at the authorities that need updating.
    We passed an authorization bill out of committee 
unanimously last year for the first time in 5 years, and we 
hope to build upon that progress with another bipartisan bill 
for fiscal year 2017.
    Like last year, our bill will focus on diplomacy programs 
and the nuts-and-bolts operations of the State Department. I 
know our staff has been having a very productive discussion 
with you, and I thank you for creating that kind of tone about 
these programs. I want to thank you for your help in the 
process, as I know your written testimony, as I read, will 
allude to.
    One area we have been studying, which I know the ranking 
member is also interested in, is how the U.S. can use its 
influence to effect change at the U.N., particularly in the 
areas of sexual exploitation and abuse by U.N. peacekeepers and 
with regard to the peacekeeping budget in general.
    Reports keep rolling in of U.N. peacekeepers and personnel 
abusing the very people they are charged with protecting, which 
is truly horrifying and a blight on the good we are trying to 
do in those countries--more than a blight, I would say.
    These bad apples operate with impunity because they know 
that there are no mechanisms in place to bring them to justice. 
We need to use our influence at the U.N. to fight this 
impunity, to insist on onsite court-martials, standing claims 
commissions for each of the peacekeeping operations, refusal to 
deploy peacekeepers from countries that do not take charges of 
abuse seriously, and whatever else it takes to root out this 
incredible abuse.
    The U.S. now pays close to 30 percent of the U.N. 
peacekeeping budget, which is more than other permanent members 
of the Security Council combined. I would not call that burden-
sharing. I think there is consensus around here that we would 
like to look at that.
    I know the State Department does not enjoy being saddled 
with this U.N. bill either. I would like to know what you are 
doing actively to create change. We talk about these things, we 
concern ourselves, sometimes there isn't really active 
engagement in trying to change the peacekeeping assessment 
formula such that it captures a country's actual ability to 
contribute and eliminate bogus discounts that relieve certain 
countries of paying their fair share.
    I am also concerned about the apparent systemic issues with 
improper handling of classified information at the State 
Department that has recently come to light. If some of your 
cleared employees are struggling with proper handling and 
safeguarding of classified information, which appears to be the 
case, we view it as our duty to set up training and 
accountability systems necessary to fix this problem.
    I am also interested in how you incentivize Foreign Service 
Officers to serve at less desirable posts. My impression is 
that the extra pay Foreign Service Officers receive at these 
posts are determined, not to be too pejorative, by bureaucrats 
in Washington and do not reflect officers' actual preferences 
about where they serve. It seems to me that it would be much 
more effective and transparent to combine the various extra 
pays into one rate for each post that takes into account the 
popularity of that post.
    Finally, I hope you will address the confusing and 
potentially unsustainable consular fee structure, which 
essentially bets on continued growth of demand for U.S. visas 
to fund our other consular services. I know you did not design 
the system this way. It was created ad hoc by statute. But we 
are looking at ways to redesign the system so it is more 
efficient and transparent. I hope you will work with us on that 
also.
    I look forward to hearing your thoughts. I know a big part 
of an authorization bill, and certainly something important to 
Senator Cardin but also us, is that you have some priorities 
you would like to see put in place. We look forward to hearing 
about those so we can work constructively toward a good 
authorization bill. Thank you for your testimony.
    Now I will turn to our distinguished ranking member, 
Senator Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN,
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Thank you, Mr. Chairman.
    First, let me thank Secretary Higginbottom for her 
attendance here today, but more importantly for her service to 
our country. We very much appreciate the work that you are 
doing on behalf of America.
    I want to thank our chairman, Senator Corker, for not just 
this hearing, but his commitment for our committee and for the 
United States Senate and for the Congress to carry out our 
responsibilities on the reauthorization of the State Department 
or the authorizations for the State Department.
    Mr. Chairman, if I am correct, I do not think there is a 
member of this committee that was in the United States Senate 
the last time we passed an authorization bill.
    The Chairman.  Unless you were serving with Abe Lincoln. 
[Laughter.]
    Senator Cardin. It has been a while since we passed an 
authorization bill.
    It has even been a longer time--I think you have to go back 
to the 1980s, when we reauthorized the USAID programs. So this 
is something we need to do.
    In certain respects, we are hamstringing the State 
Department by our failure to pass an authorization bill. You 
mentioned outdated laws. That is certainly true with the 
consular fee service issues. That was developed a long time ago 
when the services were a lot different than they are today. It 
requires an update of that authorization.
    We could talk about the current concerns on overseas 
comparability pay. That is an issue that this committee needs 
to speak to and Congress needs to speak to.
    There are many areas where Congress needs to act. On 
diplomatic security issues, we did have a bill that we worked 
on. We did not get it done, but it should be included in an 
authorization bill.
    We have work force diversity issues that this committee has 
spoken about. I hope the Secretary will talk about that. They 
are still far from where I would like to see opportunity in 
America reflected within our Foreign Service.
    There are important areas, as the chairman already 
mentioned. The United Nations reform issues, it is 
controversial, I will admit that, but we need to deal with 
these issues.
    I am not placing blame as to why we have not been able to 
get this done. I am very much working with the chairman to see 
whether we cannot find a path where we can reach the finish 
line and start, I hope, a process that in every Congress there 
will be a State Department authorization bill considered by 
Congress and acted on by Congress, recommended by the Senate 
Foreign Relations Committee.
    Mr. Chairman, we spend a lot of time in this committee. I 
do not know of any other committee that has more hearings, more 
in-depth knowledge of what is going on globally, than the 
Senate Foreign Relations Committee. We know each of the 
regions. We have spent a lot of time on each of the regions. We 
know the State Department. We know what is being done in the 
State Department.
    We are the committee that should be recommending to the 
United States Senate the policies for the State Department. It 
should not be the appropriators. It should not be Armed 
Services. It should be the Senate Foreign Relations Committee.
    I think this hearing is a good first opportunity for us to 
explore how we, in fact, can carry out that responsibility. 
Thank you, Mr. Chairman.
    The Chairman.  Thank you.
    If I could, I do not normally do this, but we have two 
outstanding Senators from Georgia. Senator Perdue has taken the 
lead on the authorization bill, but he is also taking the lead 
on our side, on the budget process. For what it's worth, I hope 
he will not be offended, but he has made comments very much 
like what you are saying: That is that it really is ridiculous, 
the way appropriators that I respect greatly, I really do, meet 
for about 5 hours and determine the budget on all these 
programs where, in essence, we spend the entire time we are 
here looking at what is happening.
    I do think that authorization process is one that is very, 
very important, and way underutilized.
    So thank you for saying that. I want to thank, again, the 
Deputy Secretary of State for Management and Resources, the 
Hon. Heather Higginbottom. Thank you for being here and sharing 
your thoughts. We appreciate your service to our country.
    I think you have done this before and understand that you 
can summarize in 5 minutes, if you wish, and your written 
testimony, without objection, will be entered into the record 
in full.
    So thank you again for being here and cooperating with us 
on this matter. Thank you.

  STATEMENT OF HON. HEATHER HIGGINBOTTOM, DEPUTY SECRETARY OF 
 STATE FOR MANAGEMENT AND RESOURCES, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ms. Higginbottom. Thank you, Mr. Chairman. Chairman Corker, 
Ranking Member Cardin, and distinguished members of the 
committee, thank you for the opportunity to testify today 
regarding State Department authorization.
    As Secretary Kerry has said, American leadership is not 
just about a button that we push in time of emergency. We must 
be backed by resources and authorities, so we are committed to 
working with the committee on a bill that provides a strong 
foundation for the State Department and enhances our efforts to 
be more effective and efficient.
    Today, I will highlight a few of the authorities that we 
believe are critically important, and I want to thank members 
of the committee for your partnership on several of these 
issues. They include permanent authority to contract local 
guards with the best value firms to better protect our people 
and infrastructure; administrative subpoena authority for the 
Bureau of Diplomatic Security to enhance their efforts to 
counter passport and visa fraud; permanent authorities to 
provide greater flexibility to set fees for border crossing, 
fraud prevention and detection, and passport and visa 
surcharges, which would support our execution of consular 
services; authorities to pay our UNESCO contribution, as well 
as to pay our United Nations peacekeeping dues at the assessed 
rate, which would help us avoid accruing arrears and enable our 
continued leadership; and overseas comparability pay authority 
to better support and retain our work force by leveling the 
playing field for overseas pay.
    The committee has also indicated its interest in hearing 
from the department on other issues, which I will briefly 
address now and look forward to discussing further.
    First, the international community relies on United Nations 
peacekeeping missions to advance our collective global 
security. The State Department is committed to U.N. reform, and 
we are working to ensure other countries pay their fair share 
of U.N. budgets, especially larger developing countries like 
China, which is now the second largest peacekeeping cost 
contributor.
    We recognize the value of peacekeeping missions, but we are 
appalled by continuing allegations of sexual exploitation and 
abuse by peacekeepers. The United States has been a driving 
force behind the U.N. zero-tolerance policy and will continue 
to push the U.N. to bring an end to abuses and hold 
perpetrators accountable.
    We are directly pressing troop and police contributing 
countries, named for the first time in last week's United 
Nations report, to promptly and credibly investigate 
allegations of sexual exploitation and abuse and, where 
appropriate, prosecute offenders.
    Second, the United States faces not only risks to our 
physical security but also risks to the security of our 
information. Since the breach of our unclassified email system 
in 2014, we have aggressively worked to enhance our 
cybersecurity. We have strengthened the way our users access 
the systems, the security testing of our networks and 
applications, and the training of our staff on the threats that 
we face.
    Third, responding to Freedom of Information Act requests is 
an important element of our transparency efforts. While the 
volume of FOIA requests to the department has increased by 300 
percent since 2008, our resources to address them have not kept 
pace. That is why we have requested a 77 percent increase in 
this year's budget for FOIA. And in addition, Secretary Kerry 
has appointed a transparency coordinator, who is spearheading 
the department's efforts to improve its systems and processes.
    Finally, our work to advance American leadership in 
diplomacy around the world is only as strong as our people. To 
ensure we have the right people in the right places at the 
right time, we are adopting policies and tools to support our 
work force, enhance leadership at all levels, and expand 
innovation.
    Mr. Chairman, as discussed in more detail in my written 
testimony for the record, a strong State Department 
authorization bill will put the department on robust footing as 
we pursue security and prosperity for the American people. I 
look forward to working with you on this important endeavor.
    Thank you, and I am happy to answer questions.
    [Ms. Higginbottom's prepared statement follows:]


          Prepared Statement of Deputy Secretary of State for 
             Management and Resources Heather Higginbottom

    Chairman Corker, Ranking Member Cardin, and distinguished members 
of the Senate Foreign Relations Committee, thank you for the 
opportunity to testify today regarding State Department 
reauthorization. As the former Chairman of this committee, Secretary 
Kerry continues to believe that a State authorization bill will enhance 
the Department's efforts to become more efficient and effective. We are 
committed to working with the committee on a bill that would provide a 
strong foundation for State Department operations while reflecting a 
balance of both Department and Congressional priorities.
    The State Department has shared its priorities with the committee. 
I will highlight a few of the most critical issues, and will also 
briefly address the other topics you requested, including information 
security and transparency, consular fees, United Nations reform, and 
strengthening our workforce. Before I begin, I want to thank the 
committee and its leadership for being a good partner on many of these 
issues.
    Shortly after I appeared before the committee last year, Secretary 
Kerry unveiled the second Quadrennial Diplomacy and Development Review 
(QDDR). Building on the 2015 National Security Strategy, the QDDR 
serves as a blueprint for the next generation of American diplomacy and 
development, looking beyond day-to-day challenges to set strategic and 
operational priorities. Over the past year, we have focused our efforts 
to advance the four strategic priorities it identifies for the State 
Department and USAID: (1) preventing conflict and violent extremism; 
(2) promoting open democratic societies; (3) advancing inclusive 
economic growth; and (4) mitigating and adapting to climate change. We 
are currently in the process of implementing dozens of the QDDR's 
recommendations, including those to strengthen our organization and 
support our workforce. The authorities we will discuss today would help 
us to further advance these priorities and reforms to help ensure that 
U.S. diplomacy is effective and efficient.
                      improve safety and security
    One areas of particular importance is authorities to enhance 
protection of U.S. citizens, government employees, and facilities 
overseas. Authorities to enhance security for ``soft targets'' overseas 
are critical as threats to schools, malls, hotels, and restaurants have 
increased. In addition, permanent authority to contract local guards by 
selecting the firms that provide the best value to the U.S. Government 
rather than just the lowest bidder would help us make further progress 
in our efforts to counter these types of threats. We are also seeking 
administrative subpoena authority for the Bureau of Diplomatic 
Security. This authority would greatly assist the Bureau in 
investigating and preventing threat cases, as well as allow them to 
conduct much more efficient investigations into the over 6,000 cases of 
passport and visa fraud it receives annually.
    In the 21st century, the United States faces not only risks to our 
physical security, but also risks to the security of our information. 
As the breach of our own unclassified email system in 2014 
demonstrated, our adversaries see information handled by the 
Department--and many other U.S. government departments and agencies--as 
a desirable target. Protecting our information as we face increasingly 
sophisticated, frequent and well-organized cyberattacks is one of the 
Department's top priorities. Working closely with the White House and 
several interagency and private sector partners, we are upgrading our 
Information Technology (IT) systems' protections, including enclaving 
our most sensitive and high-value data, finding new ways to identify 
and analyze emerging cyber threats, and expanding the training and 
accountability of personnel in ensuring the security of our systems.
                 increase efficiency and effectiveness
    The State Department and USAID have requested $50.1 billion in 
discretionary funding for fiscal year 2017. We take seriously our 
responsibility to be good stewards of taxpayer dollars and look forward 
to working with Congress to enhance our efforts.
    Transparency and accountability are fundamental to good stewardship 
of our resources. To increase the data available to the public, we are 
implementing President Obama's Open Data policy. I am pleased to report 
that we have expanded the data available on ForeignAssistance.gov, a 
web site managed by the Office of U.S. Foreign Assistance Resources on 
behalf of the U.S. government. Last year, the State Department updated 
and expanded our evaluation policy, requiring each bureau to conduct 
and publicly post annual evaluations of foreign assistance and of 
diplomatic engagement. In December, we published a report on the 
Foreign Assistance Data Review, which evaluated how the Department 
captures foreign assistance budget and planning data, and made 
recommendations that we are currently carrying out to further improve 
our foreign assistance management, coordination, and transparency tools 
and processes.
    Public access to the records of the government through Freedom of 
Information Act (FOIA) processing is also essential to our transparency 
efforts. While the volume of FOIA requests has tripled since 2008, our 
resources to respond have not kept pace. In fiscal year 2015 alone, we 
received approximately 22,000 FOIA requests. Thus, we've requested a 70 
percent increase in fiscal year 2017 funding for FOIA processing and 
electronic record archiving. In addition, Secretary Kerry appointed 
Ambassador Janice Jacobs as the Department's Transparency Coordinator 
who reports to me and is helping the Department transition from paper-
based, manual records processing to an advanced electronic records 
management system. We are expanding our already widespread training on 
handling classified and sensitive information and increasing oversight 
of the Department's Office of Information Program Services to help 
improve the FOIA process.
    We could also enhance the efficiency and effectiveness of our work 
with authorities that provide greater flexibility to support fee-funded 
consular functions. We are seeking to make permanent the authorities to 
increase some border crossing fees for minors to half of the amount 
that adult applicants are required to pay, expand our use of fraud 
prevention and detection fees, and expand existing passport and visa 
surcharges. In taking these steps, the Department can provide a more 
sustainable basis for funding consular operations, increase the quality 
of its global consular service to the American people, devote 
additional resources to combatting all types of visa fraud, and 
maintain high customer service standards for U.S. citizens who request 
a passport.
    Finally, we are seeking authorities that would ensure our continued 
leadership in international organizations, such as the United Nations 
(UN), enabling the United States to continue to lead from within these 
organizations and leverage other countries' resources. U.N. 
peacekeeping has been one of the most meaningful forms of international 
burden-sharing for almost 70 years. As President Obama has said, 
``[peacekeeping] is not something that we do for others; this is 
something that we do collectively because our collective security 
depends on it.'' On September 28, in connection with the Leaders' 
Summit on Peacekeeping at the U.N. President Obama released a Policy 
Memorandum on U.S. Support to U.N. Peace Operations, the first of its 
kind in over 20 years. It directs the State Department and other U.S. 
departments and agencies to take actions that will help to improve the 
performance and accountability of peace operations and their uniformed 
and civilian personnel. Implementation is underway. We have requested 
authority to pay our peacekeeping dues at the assessed rate through the 
Contributions to International Peacekeeping Activities account, which 
will allow us to more effectively shape and reform peacekeeping 
operations to deliver maximum impact and avoid potentially accruing new 
arrears at the U.N.
    We firmly believe that emerging countries must pay their fair share 
of U.N. budgets, as they have an increasing stake in ensuring the 
U.N.'s success in addressing global challenges. The assessment rates 
for larger developing countries are continuing to increase as their 
share of the world economy grows. China, for example, is now the second 
largest contributor to U.N. peacekeeping costs, contributing over ten 
percent of those costs annually.
    While we recognize the invaluable nature of international 
peacekeeping missions, we are appalled by continuing allegations of 
sexual exploitation and abuse by peacekeepers. The United States has 
been the driving force behind the U.N.'s zero tolerance policy and will 
continue to push the U.N. to bring an end to abuses and hold 
perpetrators accountable. We strongly support U.N. measures to 
strengthen prevention, enforcement, and accountability for sexual 
exploitation and abuse, including the Secretary-General's repatriation 
of military contingents that have demonstrated a pattern of abuse and 
his suspension of payments to countries for their personnel who face 
credible allegations. We will continue to monitor the U.N.'s 
implementation of its proposals and we are also directly pressing troop 
and police contributing countries--named for the first time in the 
March 4 U.N. report on these abuses--to promptly and credibly 
investigate allegations and, when appropriate, to prosecute offenders.
    In this challenging budget environment, we have also been working 
closely with the Department of Defense on the significantly increased 
authorities and resources to provide assistance to foreign nations. As 
part of our efforts, we continue to implement the Presidential Policy 
Directive on Security Sector Assistance, which emphasizes comprehensive 
interagency approaches and close collaboration in the planning and 
execution of security sector assistance between State and DOD. We 
appreciate this committee's work with its counterparts on the Armed 
Services Committees to ensure that security sector assistance is 
coordinated not only within the administration, but also in Congress. 
We look forward to working with you to ensure State's ability to 
effectively coordinate security sector assistance in line with broader 
foreign policy goals.
               strengthen and retain a talented workforce
    In our work to advance American leadership and diplomacy around the 
world, we are only as strong as our people. We need the right people, 
in the right places, at the right time. Thus, we are investing in an 
agile, diverse, and skilled work force. We are committed to creating 
and retaining a diverse workforce--one that more closely reflects the 
diversity of our nation. We have made important changes, such as 
increasing our focus on leadership at all levels of the organization, 
updating our training, adding recruitment opportunities, and expanding 
efforts to hire and retain a diverse workforce.
    As we capitalize on the top talent attracted to the State 
Department, we must work hard to retain them in a competitive labor 
environment. Our top priority is to secure full Overseas Comparability 
Pay (OCP) authority. Due to inequities in the Foreign Service pay 
schedule, Foreign Service officers deployed overseas have absorbed cuts 
to their basic pay compared to their domestic counterparts. In 
addition, our colleagues from other agencies with whom we serve 
overseas do not face this discrepancy. One recent Federal Employee 
Viewpoint Survey revealed that more than 60 percent of officers said 
the elimination of OCP would deter them from bidding on overseas 
assignments, and that more than 50 percent said they would either 
seriously or somewhat consider leaving the Foreign Service if OCP were 
eliminated.
    Another priority in the retention of our employees is the payment 
of our locally-employed staff (LE Staff). The role of LE Staff is 
absolutely essential to our mission. Overseas, America is often a 
magnet for local talent, however, if we do not pay competitively, we 
stand to lose valuable skills, institutional knowledge, and their 
critical local relationships. In the current fiscal year, we are 
targeting our resources to countries where our current pay rates make 
it difficult to retain local employees.
    Mr. Chairman, a strong State Department authorization bill will put 
the Department of State on robust footing as we aggressively pursue the 
security and prosperity of the American people. Along with Secretary 
Kerry, I look forward to working with you on this important endeavor. 
Thank you and I am happy to answer your questions.


    The Chairman.  Thank you very much for being here.
    All of us have read the stories in the Washington Post and 
certainly have had testimony here about what is happening with 
peacekeepers. This is abhorrent, and it's hard to believe that 
we are participating in U.N. peacekeeping and trying to help 
people and yet they are being taken advantage of. There is a 
terrible report regarding the DRC recently.
    What is it that we can actually do? I fear sometimes that 
we have other priorities at the U.N., and we do not want to 
rock the boat unnecessarily. It just does not appear to me that 
we are really laying on the railroad tracks on this issue. I 
wonder if you would tell me that maybe I am wrong and what we 
are doing to actively cause changes to occur.
    Ms. Higginbottom. Thank you, Mr. Chairman.
    First, we share your outrage. This is appalling behavior. 
We have been very active in the U.N. to try to address it.
    In the report that the Secretary General issued on Friday, 
for the first time, they have named the countries of alleged 
violators of sexual exploitation and abuse, which is a policy 
we have been pressing them to do.
    As a result of that, we have already directed our 
ambassadors in those affected countries to go in and demand a 
rapid investigation and prosecution where appropriate.
    So we have been pushing that for a while. We are pleased 
they have finally done it.
    We have also been supportive in pressing the U.N. to 
suspend reimbursements for the personnel who are alleged to 
have committed these abuses, so they are not being compensated, 
as well as to repatriate contingents of peacekeepers where 
there is a trend of abuse. The U.N. has taken that action once 
already with the DRC contingent.
    We also have pressed the U.N. and they are moving forward 
on establishing sexual exploitation and abuse task forces 
within each peacekeeping mission, so we can ensure that the 
leadership is focused, that there is training and engagement on 
this.
    So we have taken several steps. We will continue to take 
more, and this is a very top priority for us.
    The Chairman.  Where are we on the onsite court-martials, 
so that we know that justice is being served, and they are not 
going back to their home countries and never being seen again?
    This will be court-martials, by the way, by the countries 
that are involved, not by some outside group. But where are we 
on that?
    Ms. Higginbottom. That is correct, Mr. Chairman. We are 
pressing them to rapidly convene those tribunals. On a sort of 
country-by-country basis, we have to assess what capabilities 
and capacity they have and work with them to develop it, but 
that is a priority for us and something we are working with the 
contributing police and troop-contributing nations on.
    The Chairman.  The lower U.S. assessment that I know you 
spoke to earlier, and I did and Senator Cardin did, in opening 
comments, but what are we doing? Again, this is another area I 
feel like we have let pass because we have other priorities. 
But we have a period of time now to lower the assessment. What 
are we doing actively to get things in the right place? I mean, 
we have members of the U.N. Security Council that are not 
paying their fair share. There is some bogus formula that is 
put together because of what they are as a country and what 
their status is that keeps that from being the case.
    What are we doing to prevent that in the future?
    Ms. Higginbottom. Mr. Chairman, two pieces.
    First, we have been working with the U.N. over a period of 
years to reduce the cost of the peacekeeping missions. Over the 
past several years, we have been able to reduce the cost per 
peacekeeper by 17 percent. In the latest proposal for 
peacekeeping missions, the overall amount has been reduced by 
$200 million, so we are continuing to press on the overall 
costs.
    Likewise, we are working very hard----
    The Chairman.  If I could, many of the countries that send 
troops there actually make money off of it. They make money off 
of it. In most cases, they are being paid far above what it 
actually costs them. Yet countries self-report their costs, 
which is ridiculous. It reminds me of the Libor scandal where 
people were self-reporting.
    What are we doing to have some accountability there, 
because we know, again, many of these countries see it as a 
profit-making issue? Go ahead.
    Ms. Higginbottom. Mr. Chairman, we have been pressing the 
U.N., both in the general U.N. budget as well as in the 
peacekeeping sphere, to improve transparency and 
accountability. We will continue that engagement and work.
    To your previous comment about the contributions of other 
countries, we have pressed hard to deal with the credit issue, 
and we will continue that work. We are pleased to see China and 
Russia and some of the other countries significantly increasing 
the amount that they are paying toward the peacekeeping 
missions, but that is work that we need to continue to engage 
in and would like to work with you to figure out the best ways 
we can do that.
    The Chairman.  All of us travel extensively--fortunately, 
people on this committee take their job seriously--and spend a 
lot of time overseas. On pay, I want to state that I think our 
people should be well paid. I think our Foreign Service 
Officers are doing the Lord's work around the world trying to 
make sure that we pursue U.S. interests. So I want to get that 
out on the front end.
    At the same time, I do hear them saying, and we have lots 
of private conversations with them, as you can imagine, that 
coming back to Washington is a pay cut. So we have this foreign 
pay issue, and yet most of them believe the higher cost-of-
living here in Washington and the fact that their housing is 
not paid for is actually a pay cut.
    So are we really dealing with the issue of Foreign Service 
and what they are paid in these other countries in the 
appropriate way with the understanding that most of them would 
prefer to be overseas than here as it relates to what they are 
paid?
    Ms. Higginbottom. Mr. Chairman, thank you. I think it is 
quite customary for the Foreign Service Officers to want to be 
deployed overseas where they most enjoy doing their work.
    But with respect to the allowances and the cost-of-living, 
the hardship, those are based on exceptional costs of serving 
overseas. The increased costs of goods and services, hardship, 
living in a dangerous place, living in a place where there is a 
lot of crime, where there are health risks, that category of 
hardship differential is an incentive payment to encourage 
people to take those riskier and more complicated assignments. 
The cost-of-living adjustments are intended to ensure people 
can obtain goods and services comparably to the way they would 
in Washington, D.C.
    We review those regularly. We think the allowances and 
differentials are appropriate and important, both to provide 
compensation as well as incentive to get to some of our----
    The Chairman.  Is there a rational way of arriving at what 
that is? It seems to me that we have a small group of people 
back here in Washington who set these various differentials, 
and they may not be based on the realities that exist on the 
ground.
    Ms. Higginbottom. I would certainly be very pleased, Mr. 
Chairman, to talk with you about different ways of approaching 
this. Though the process is managed in Washington, it is done 
with input from post. So whether it is assessing the conditions 
on the ground with respect to danger, public health, some of 
the other conditions, that is with input from post. It comes to 
Washington.
    The cost-of-living adjustment, we have a survey that goes 
out every couple years that looks at the specific costs of 
goods and services in those countries.
    So it is managed centrally, but it really benefits from a 
lot of input at post.
    The Chairman.  Lastly, the ranking member and myself have 
had a number of conversations. We have gone down to the SCIF 
together to get a sense of what has been occurring at the State 
Department relative to emails. We have gone out of our way to 
make sure that this committee does not politicize an issue at a 
time when that should not be done.
    But would you agree that some type of training and some 
type of systematic checks need to occur within the department 
to make sure that classified information is being handled in an 
appropriate way?
    Ms. Higginbottom. The department takes its responsibility 
to protect sensitive information very seriously. We do do a lot 
of training.
    As part of the most recent process we concluded just a week 
ago, in the release of Secretary Clinton's emails, we are going 
to conduct a lessons-learned process both in how we process 
those emails and some of the issues that arose.
    But we do have robust training both when someone enters the 
department, just so they understand the type of information 
they will see and why that might be of interest to an adversary 
or someone with an interest that is not in the United States' 
interests, but also as you get security clearance as you are 
allowed to review and handle classified information. So we do 
do a lot, but we should certainly look at----
    The Chairman.  Is that new? Is that training new?
    Ms. Higginbottom. It is not new, Mr. Chairman. We have had 
training for a long time, and we adapt. For example, I get 
locked out of my computer, as does every other State Department 
employee, if I do not take an annual cybersecurity awareness 
course. So I literally cannot get on. I have to take it. It 
takes a few hours.
    So we are adapting as we see different threats, and we 
provide different levels of training.
    The Chairman.  I would like to pursue that further with you 
in another setting.
    Ms. Higginbottom. Absolutely.
    The Chairman.  Thank you.
    Senator Cardin.
    Senator Cardin. Mr. Chairman, on the last point, I thank 
you, because we do share the same responsibility of this 
committee to oversee the State Department's handling of 
information. As has been pointed out, the transition to an 
electronic transfer of information requires a different way of 
handling material, and I look forward to working with the 
chairman. This is not a problem of one administration. It goes 
back several administrations.
    There is no information that there have been state secrets 
that have been disclosed, but we do need a more efficient way 
to handle sensitive information.
    So I look forward to working with the chairman carrying out 
the responsibility of our committee.
    Madam Secretary, through the last 10 to 20 years, there has 
been an incredible change in attitude from Americans in support 
of our diplomacy and development assistance programs. When I 
first came to Congress, I think it would have been very 
difficult for us to pass a foreign operations appropriations 
bill. Now that bill becomes, in some respects, a driver for 
other issues getting done.
    The American people understand that the modest investment 
we make, less than 1 percent of the budget, is very important 
for national security.
    So I think it is really ideal for us to be able to put 
together a State Department authorization bill for passage. We 
do look forward to working with the administration in that 
regard.
    There is one part of your budget that is going to make it 
more difficult for us, and I mentioned it to Secretary Kerry. 
That is why you are using OCO funds to fund core parts of the 
State Department's commitments. I do not know how we transition 
to a sustainable support for your mission when we are using OCO 
funds that will not be there.
    So can you just briefly explain how you intend to make sure 
the legacy of your leadership provides the resources necessary 
to carry out this important function of government?
    Ms. Higginbottom. Thank you very much, Senator. We share 
the concern that an increasing percentage of our resources are 
funded through contingency operations.
    The Bipartisan Budget Act that was passed last year and set 
the parameters for both the 2016 appropriations process and the 
2017 included increasing the percentage of our budget that 
would be funded as OCO. That reduces our base funding and 
skews, to a certain extent, what is funded where.
    And while we have agreed to the budget deal, of course, 
that the President signed, and we are adhering to it, we do 
have concerns about what that means going forward. We would 
like to see our truly enduring base costs, our ongoing 
operations, funded in a base at a sufficiently high level to 
enable us to conduct our missions, and to preserve the 
contingency operations for short-term, exceptional events.
    I think that it is necessary to have contingency funding 
for State and AID going forward, but it should be rationalized 
from where we are today. I hope that will be a process that we 
can engage in with Congress going forward.
    Senator Cardin. That sounds rational, but when you have 
base core programs funded through contingency funds, the makes 
it difficult to see how that is going to be transitioned off 
when you know how difficult it is to get other funds. It is 
something we will have to deal with in an authorization bill, 
so I would just urge you to look at the long-term 
sustainability of your mission as core functions and funded as 
core functions, not as contingent functions.
    I agree with Senator Corker in that, as I travel and meet 
people who are in Foreign Service, they are incredible, and 
they deserve the full support and thanks of the American people 
and our political system, so I strongly support their 
compensation and I strongly support their having the resources 
necessary.
    But when I look at the leadership in our Foreign Service, 
and I look at the pipelines for how we are developing future 
leaders, it does not represent, to me, the demographic changes 
of America. I want to know what you are doing to make sure that 
we carry out our commitment to have the face of America 
representative of the people of America.
    Ms. Higginbottom. Thank you, Senator. The diversity of our 
work force is a very important priority for the Secretary, for 
me. We included it in the Quadrennial Diplomacy and Development 
Review that we issued last year, shortly after I was here, 
elevating it as a priority for senior leadership and the 
department.
    We have increased in our fiscal year 2016 budget our 
resources devoted for recruiting and retaining a diverse work 
force by 50 percent. One of the core aspects of that is 
increasing by 50 percent of the Pickering and Rangel fellows, 
which have been an effective way to ensure we have a qualified 
and more diverse work force.
    One of the key priorities from my perspective as I look at 
the data and do the analysis of our work force, in particular 
the Foreign Service, is ensuring that as we bring in a more 
diverse work force, we have support to retain and put on a path 
to senior leadership positions that more diverse work force.
    So some of the resources that we are asking for in the 
budget are to expand some midlevel career development 
programming. We have just contracted with the Cox Foundation to 
do a review of our retention and mentoring programs, which we 
hear from our personnel are critically important. We want to 
know that we are using our resources effectively and targeting 
them in the right way.
    Senator Cardin. I think it is very important this be done 
in a very open, transparent way, so I am going to ask, with the 
chairman's help, that you keep our staffs actively informed as 
to the process that you are using, how transparent it is, how 
you are reaching out for recruitment, et cetera, so that we are 
fully engaged with you in this effort on diversity. I hope we 
would have your cooperation.
    Ms. Higginbottom. Absolutely. We would welcome that 
opportunity, Senator. I should also mention that Secretary 
Kerry has asked all of his Assistant Secretary level or above 
officials to do a domestic recruiting trip coordinated with our 
diplomats in residence so that we are targeting the right 
institutions in the right parts of the country and using what 
tools we have, in addition to additional budget requests to do 
that kind of outreach.
    Senator Cardin. Thank you.
    Lastly, let me mention an area where I think the allocation 
of resources are not adequate to meet the challenges we have. 
That is democracy funding and anticorruption efforts.
    Every place I travel and talk to our missions, in countries 
that are either in transition or have challenges, they tell me, 
``Give me more money for democracy. Give me more money for more 
focus on anticorruption issues.'' Every dollar we get, it 
produces incredible results for America's mission. They just do 
not have enough of it.
    So what efforts can you suggest to us, working with you, 
where we can get funds allocated in those regions that are in 
desperate need of democracy assistance and throughout the world 
on anticorruption issues.
    Ms. Higginbottom. Thank you, Senator.
    We agree that we have not been able to allocate the 
democracy resources the way we would like to, the way that 
truly aligns with our policy, in part because we have a lot of 
crises that we are dealing with around the world and have to 
make tradeoffs in our budget dealing with the directives and so 
forth.
    But that is why we have increased funding in 2017 for 
democracy programming. We have also heard from Congress that 
they want to see through the appropriations process greater 
focus. So I am hopeful that we can come together and be able to 
protect that funding. We think it is important.
    As we build our budget, it is a bottom-up process. We hear 
from posts first, and this issue is particularly acute in many 
places, and we are very cognizant of that.
    Senator Cardin. Your point about through the appropriations 
process underscores the point that Senator Perdue and Senator 
Corker have made. Give us the tools so we can give you the 
statutory authority to be able to allocate those resources, 
rather than depending upon an appropriations process that does 
not always work smoothly in this institution.
    Ms. Higginbottom. We look forward to working with you on 
that. Thank you.
    The Chairman.  If I can make one point before turning to 
Senator Isakson, I know this may be just out of bounds by some 
Foreign Service Officers in their thinking, but to address 
diversity, but also to address bringing professional in--I 
mean, we have a lot of folks who are aging out in the Foreign 
Service. Does it make any sense to allow people who have been 
incredibly competent in civil society to be able to transfer in 
at a level that is not stamping visas and those kinds of 
things?
    I mean, is that something that would be rational and help 
on the front that Senator Cardin was just asking about?
    Ms. Higginbottom. Thank you, Mr. Chairman.
    That is an idea that has been tested at various points. I 
think we can continue to talk about and try to figure out a way 
to handle that. We have wrestled with how to best take 
advantage of the contributions that we could get in the Foreign 
Service, while also having a system that we sign people up and 
they spend their careers at the State Department and work 
through a series of different steps. So we are trying to 
balance both the culture and requirements of the Foreign 
Service, with the great benefits we could get from others.
    The Chairman.  Thank you. Senator Isakson?
    Senator Isakson. Thank you, Mr. Chairman. I want to thank 
you and Senator Cardin for mentioning our foreign diplomats 
overseas who really are the face of the United States.
    We always brag about them, but we never have a chance to 
point one out because they are always somewhere overseas. We 
have one here today.
    Julie Fisher, will you stand up? This is my neighbor. 
[Laughter.]
    Senator Isakson. Julie's parents still live down the street 
from me. She grew up down the street from me. She volunteered 
to serve America overseas in Ukraine and many old Soviet bloc 
countries.
    And she is pretty doggone good, Madam Secretary, because I 
read your brief and I had all these questions on Internet 
security, information security, and FOIA requests, and you 
covered every one of them in your opening statement, so you 
have an awfully good person.
    Julie, we are proud you are here today.
    The Chairman.  You see why Isakson is so popular in 
Georgia. [Laughter.]
    Senator Isakson. I do have one point to make.
    Senator Cardin. Do we have any Marylanders out there? 
[Laughter.]
    Senator Isakson. The chairman and I went to Darfur 5 years 
ago, if I am not mistaken. It may have been 6. We were the 
second and third ever of elected Senators to go to Darfur and 
got to see firsthand the environment in which many of these 
refugees and people who are abused sexually and traumatized 
reside. We learned that sexual trauma and sexual violence is a 
military tactic in many African countries and other countries 
around the world.
    So I want to underscore the chairman's comments about 
sexual violence and the predators that are in some of these 
peacekeeping units. We need to make sure that the onsite court-
martials and of the type of discipline that take place, so that 
is abolished and America never stands or looks the other way 
when that goes on.
    Ms. Higginbottom. Thank you so much, Senator, for your 
comments. We wholeheartedly agree.
    Both in the peacekeeping context as well as in our 
engagements with several African countries, as we are doing 
training and trying to support good governance and democracy, 
being very clear on what is acceptable and what is not is 
critically important. So we see it, as you point out, in many 
different contexts, and it is appalling. We have to make it a 
top priority wherever we see it, including, of course, in the 
peacekeeping missions.
    Senator Isakson. One last point on the reauthorization, we 
waited 13 years to finally reauthorize the Elementary and 
Secondary Education Act, and we did that last year, but public 
education in America suffered greatly by the inaction of the 
United States Congress. I want to underscore your comments and 
those of the ranking member on the need for us to reauthorize 
the State Department again, and modernize those rules and 
regulations and empower them to do the job they need to do 
overseas.
    I would ask you a question, but with Julie there to give 
you advice, I know you are going to have the right answers, so 
I am going to excuse myself and give David Perdue the chance to 
go ahead.
    Ms. Higginbottom. Thank you so much, Senator.
    The Chairman.  Thank you. Thank you so much, and thanks for 
your major contributions, and we are glad we violated the rules 
to allow you both to be on the committee, two Senators from 
Georgia. [Laughter.]
    The Chairman.  Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    Thanks, Madam Secretary.
    I want to ask a little bit about Latin America, a 
particular interest of mine, and I know Senator Menendez, too, 
is always very focused on this.
    First, the President announced a new investment. In the 
budget, he proposed to take to a second chapter Plan Colombia 
as Paz Colombia, Peace Colombia. Talk a little bit about, from 
the State Department's view, from a resource view, the kind of 
return on investment that we had on the first 15 years of this 
investment over three administrations and how we would propose 
to assist Colombia in this new chapter, God willing, post-
ceasefire.
    Ms. Higginbottom. Thank you, Senator, so much.
    I had the chance to travel to Colombia about 3 weeks ago 
with the purpose of the trip being to meet with government 
officials to talk about the future, to talk about Paz Colombia 
and understand how our resources can best be directed, assuming 
there is a peace deal, and we hope soon, one that we can 
support and continue the bipartisan support we have had across 
administrations to help that country go into the areas that 
have been governed by the FARC and really deal with the 
narcotrafficking, with the coca production, and some of the 
other issues there.
    What I heard time and again is an impressive understanding 
of what capacities the United States brings to the table that 
they need to do that. There are excellent plans developed, but 
implementing them and understanding what capacities we bring, 
whether it is on the military training side, on the support for 
civil society side, in the alternative development and, of 
course, in some of the narcotrafficking.
    So my takeaway from that experience, and I think it is 
reflected in the administration's policy, is a continuation of 
our engagement where we provide truly leveraging capabilities, 
and working with a common vision of what success looks like. So 
I am hopeful and came away from that trip both convinced that 
there is a lot of work to do but that we are on the right path 
and have good partners.
    Senator Kaine. The story of Colombia is not just a U.S.-
consistent interest that helped Colombia transform but Colombia 
has now become a security partner to help with security 
assistance in the Northern Triangle. They have peacekeepers as 
part of the multinational force of observers in the Sinai. They 
are really becoming a global force for positive security in a 
way that is a great alliance for us, but a real tribute also to 
their commitment to peace and prosperity outside their own 
borders.
    Ms. Higginbottom. I agree. When I was in Central America at 
the end of last year, especially in certain neighborhoods in 
Honduras and El Salvador, every visit that we made to see how 
USAID and State Department dollars were being used, there was a 
Colombian police officer participating in the training, and it 
was incredibly valuable to those countries.
    When you look at the progress that Colombia has made over 
the past many years and you look at the path that the Northern 
Triangle countries have to traverse, there is a lot of good 
learning and examples that we can draw from there.
    Senator Kaine. Moving to the Northern Triangle, in the 2-
year budget deal and the appropriations deal we struck at 
yearend, and really because of the Senate--the Senate had this 
in the Senate-side appropriations; the House did not; and the 
compromise followed the Senate version--$750 million investment 
in the Northern Triangle with Plan Colombia as an indication 
that, hey, we can have hope that this will work if we are 
consistent with it.
    The President has proposed an additional $1 billion for the 
Northern Triangle countries. Talk a little bit about--we have 
had testimony previously about the kind of pillars and in to 
which the investments will fall, but what will our metrics be 
for sort of measuring whether the progress is what we would 
hope?
    Ms. Higginbottom. Thank you, Senator.
    The first metric we have a need to keep focused on are the 
commitments that the Presidents of those three countries have 
made and ensuring they live up to those commitments. One of the 
critical elements of our strategy for Central America is 
ensuring that we have learned from the things we have done 
before, but we are also doing things differently.
    That requires transparency and good governance. It requires 
alignment of resources and shared priorities, so that these 
governments are putting their own resources against our 
commonly shared vision of what needs to happen.
    We are working very carefully across our government within 
different agencies to ensure we have developed tools to measure 
success, to know what is working and what is not.
    One of the areas that I spent a lot of time visiting when I 
was in the region was on the partnership between the State 
Department's INL Bureau and USAID, bringing the law enforcement 
and the community-based programs together, both to establish 
trust of law enforcement but also to ensure we are more 
comprehensively addressing the needs in those communities.
    We are scaling that up across the region in large part 
based on an independent evaluation that showed that the 
strategy would be successful.
    So we are going to do different monitoring and evaluation 
projects. We are going to hold ourselves accountable. And we 
are going to put the resources against what we know works.
    Senator Kaine. Staying in the region, obviously, there is a 
huge concern about Zika. This is not a HELP hearing, but I am 
curious, particularly with respect to State Department 
personnel in the Americas. What steps you are taking from a 
management standpoint to protect our people?
    Ms. Higginbottom. Thank you, Senator.
    So first of all, obviously, the greatest population at risk 
are women who are pregnant or who want to become pregnant. So 
just as the Pentagon has done, any personnel under chief of 
mission authority have the opportunity to curtail their 
assignments early, return to the United States, be medevaced 
early.
    We have had some employees who have availed themselves of 
that. We will continue the messages as we have, so they 
understand what opportunities they have.
    We have also been very clear about how individuals in 
affected areas can protect themselves.
    This is, as I am sure you know, a difficult vector to 
control, but there are measures that individuals can take to 
protect themselves. We are ensuring they have sufficient insect 
repellent and information, and so forth. So we will continue to 
do that.
    Senator Kaine. Good.
    One last issue. Senator Cornyn and I took a trip about a 
year ago to Mexico, Honduras, and Colombia. And it was 
interesting. The purpose of the trip did not have anything to 
do with Cuba but every head of state we met with said, you have 
no idea how your path toward normalization with Cuba is going 
to open up other opportunities in the Americas for you. They 
kind of described it as, if there was a fight between Uncle Sam 
and small Cuba, we kind of had to be on Cuba's side. And that 
hobbled institutions like the OAS, for example, where the U.S.-
Cuba challenge was always sort of an ankle weight slowing them 
down.
    I just really think the path with Cuba--and we are going to 
have to continue to challenge Cuba on human rights issues, just 
like we challenge all kinds of other countries we have 
diplomatic relations with on human rights issues. We are going 
to have to continue to focus on that.
    But the Americas, for our purposes these days--first, we 
are all Americans. We all call ourselves Americans, North, 
South, and Central. If there is that ceasefire in Colombia, it 
will be the end of war in these two hemispheres. There will not 
be a war, which is probably the first time in recorded history 
that you could say that. And there are just enormous cultural 
similarities that we share.
    Recent electoral activities, especially in South America, 
have had some really promising signs about pro-democracy, pro-
human rights.
    There are just a lot of upside opportunities. I would hope 
that we do not spend all of our time worrying about our 
headaches and short shrift the upside opportunities that we 
have in our own region. I would just really encourage the State 
Department and my colleagues on that.
    Ms. Higginbottom. Thank you very much, Senator.
    Senator Kaine. Thank you, Mr. Chair.
    The Chairman.  I appreciate your comments about Zika. I 
assume that the State Department is going to be sending out 
notifications to travelers--the Olympics are taking place in 
August--notifying them of concerns. Is that correct?
    Ms. Higginbottom. The Centers for Disease Control issues 
guidance of this kind, and we disseminate it broadly across our 
platforms. So if anyone is interested in coming to the State 
Department or the Embassy's Web site to gather information 
about Brazil, they will find that information providing the 
CDC's guidance.
    The Chairman.  We might want to be a little bit more 
proactive than people looking at Web sites, but we will talk 
about that.
    Senator Perdue?
    Senator Perdue. Thank you.
    Let me Echo Senator Cardin and the ranking member comments 
this morning. I think that is at the center of one of our 
problems, that we have to coordinate how we fund these 
departments. And the people who really understand these 
departments and have the responsibility of oversight need to be 
involved in that process. I could not agree more. We are 
working to try to see how we can change that.
    Madam Secretary, thank you for being here. It is always a 
pleasure. Thank you for your courtesies last week by sending 
over Hari Sastry and Doug Pitkin. They did a great job talking 
about budget requests in our subcommittee.
    I just have three quick questions. One is, just to put a 
little historical perspective on this, and let me give a little 
context, the way I look at it, with the last 7 years, and this 
is not a partisan comment, it is just a reality that we 
borrowed over a third of what we spent as a Federal Government.
    If you look at it, about two-thirds of our spending is 
mandatory. Some if those dollars that we get in go to mandatory 
first, that means that every dollar we spend on Defense and 
State and USAID is fundamentally borrowed. So that means there 
is a real crisis here, and we need to look at what we are doing 
with what we are spending.
    The perspective is, between 1992 and 2000, State in all of 
its endeavors averaged about $20 billion a year in expense over 
that 8-year period. Between 2000 to 2008, while we averaged $30 
billion, it went from $20 billion to $40 billion, and a lot of 
that was Iraq, Afghanistan, and other things. Since then, we 
have fallen into this level of about $50 billion.
    By the way, I have to call out that you are asking for less 
money this year than you asked for last year. So I have to call 
that out and thank you for that.
    So I have that observation. The second observation is the 
fact that while that level stayed at about $50 billion, the 
enduring dropped from $50 billion to $40 billion over that 
period of time and was filled with OCO.
    So you have already answered the OCO part of that. But I 
have the second piece of that, which is, help me understand the 
responsibilities and what we are doing around the world. I 
recognize we are the most philanthropic country in the world, 
and we need to maintain that position as long as we can afford 
it, but I am just not sure right now that we should not ask the 
question, can we afford all this?
    So it is incumbent on you as the budget process comes about 
to justify how we have gone from $20 billion to $40 billion or 
$30 billion and then now to $50 billion. Explain that to me 
just a little bit. I know you did not take it from $20 million 
to $50 billion. You have been given a challenge to use $50 
billion and you have kept it flat, pretty much.
    But help me with that historical perspective on how we are 
spending that much.
    Ms. Higginbottom. So, Senator, I think you have touched on 
a few elements of it, which are Iraq and Afghanistan that 
required increases in our budget, and require increases to 
sustain our engagement there.
    I would point to a couple other factors as being those that 
we need to fund. That is that we are dealing with an 
increasingly complex world. Just take the humanitarian side for 
a moment. We have four Level 3 humanitarian disasters. I cannot 
say that is unprecedented, but it is highly unusual. And we are 
a very generous contributor to those crises.
    We also have the rise of violent extremism and terrorism in 
ways that are different than we saw during the periods of time 
you are referencing.
    I do not know whether those numbers include supplemental 
funding appropriations. But we did as a regular course rely on 
and utilize supplementals to address the emerging crises.
    So I think each of those play a role in that. But, Senator, 
we would be pleased to go through in more detail some of the--
--
    Senator Perdue. I think it would be instructive, because I 
think this is a function that every department over the next 
couple years is going to have to go through, in terms of what 
we really can afford to do. It is a question we do not ask much 
up here.
    I have a second question quickly on the IG. Last year, we 
talked privately and you testified about this. I know you have 
been very vocal about this. But as I look at it, I do not see a 
lot of progress, honestly.
    So can you address the progress that you are making with 
that, with regard to specifically the request of the IG? I 
think there was no disagreement last year about having the IG 
be aware of all investigations. There are evidently three 
pathways investigations going inside State. Can you speak to 
that, just a minute?
    Ms. Higginbottom. Sure. I would be pleased to.
    We have been working with the IG to identify which of the 
investigations, which types of cases, they are most interested 
in having information about and having the ability to 
investigate, should they choose. They can investigate anything, 
but where we narrow their focus, so that the processes that we 
have of an administrative nature--if someone wants to bring a 
civil rights case to our Office of Civil Rights, it is clear 
that the IG's office is not necessarily interested in that. And 
we are engaged in those discussions right now.
    Senator Perdue. Is the IG aware now of all the potential 
investigations? So they are now aware?
    Ms. Higginbottom. The conversation that we are having with 
them right now is to look across all the different avenues 
people have to bring, even approaching the ombudsman and say, 
what cases are you interested in, defining that, and then 
working through the process.
    I will not speak for him, because that would not be 
appropriate. But I do, as you know, meet regularly with him. I 
think he is also pleased with the progress.
    I think very soon we will have a policy that we have agreed 
upon, and that we can explain and make easily understandable to 
our employees.
    Senator Perdue. I think that would be important.
    Lastly, before my time is out, as we traveled the world, as 
the chairman mentioned, it is one of the great benefits of this 
responsibility, that you do see great Americans out there in 
the field. I have to echo what everybody said. I just marvel at 
the quality of people and their dedication around the world.
    And I know we have to make them secure. I know, post-
Benghazi, there has been an uptick in that. There are some four 
major embassies in construction. Can you talk about embassy 
construction and the overruns on those, particularly Islamabad, 
London, Singapore, places like that where I know these are $1 
billion-plus installations now, and we have to have stronger 
buffer zones or offsets. Can you speak to that just a minute, 
please?
    Ms. Higginbottom. Sure, Senator.
    You touched on one of the issues that is most important 
when we think about embassy construction, and that is building 
facilities that are safe and secure for our personnel. Post the 
bombings in the 1990s and more recent events, we continually 
review and look at what our requirements are and make sure that 
we can do that.
    And in places where it is more dangerous to operate, those 
costs can be more expensive. So Islamabad would be an example. 
Where we have posts that house a lot of different agencies, we 
have different requirements to meet.
    Senator Perdue. That is another question I would like to 
dial into at some point. I know in Singapore, there are some 19 
different government agencies that have offices and personnel 
over there. I would really love to know the purpose of those. 
That may not be under your purview, but at some point over the 
next few months, I would love to see what those areas of 
responsibility are.
    Ms. Higginbottom. We would be pleased to do that for you, 
Senator, at any of our posts.
    I think when you travel, as you have to our embassies and 
our posts, and you have a chance to sit with the country team, 
you get a flavor for which of the different opportunities 
having our agencies there make.
    But it is expensive, and we do have to work through what 
those requirements are.
    Senator Perdue. Are you experiencing serious overruns? That 
is really what I was going for.
    Ms. Higginbottom. I think it depends on a case-by-case 
basis. I would not say in general, because in some cases, we 
have a budget, we go out and we bid, and we come under budget. 
In other cases, for various reasons, the costs are in excess of 
what we projected.
    So it depends, and it depends on some circumstances. But we 
could provide you with our most recent set of construction 
plans and budgets, and provide some additional----
    Senator Perdue. I do not need to see the plans. I trust you 
on that. But maybe the budget numbers.
    Ms. Higginbottom. I meant budget plans.
    Senator Perdue. Thank you very much.
    Ms. Higginbottom. Thank you.
    Senator Perdue. Thank you, Mr. Chairman.
    The Chairman.  Thank you very much.
    Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    Welcome. Thank you for being here again.
    I appreciate Senator Perdue's conversation about what we 
can afford to do within the limited resources we have to spend.
    Listen, I would pose the opposite question. I think we have 
to ask the question of how we can afford not to make these 
investments, especially when you put U.S. foreign aid and 
international development funding in the context of what our 
competitor nations are spending themselves.
    Over the last 10 years alone, the Chinese have increased 
their foreign aid by a factor of seven at a time when our 
foreign aid has been largely flat. We are looking at a budget 
that is, frankly, $2 billion less than the fiscal year 2010 
enacted numbers. The Chinese have increased their spending by a 
factor of seven.
    In Egypt, there is a lot of commotion about turning back on 
$1.3 billion in U.S. military aid. Just the beginning of this 
year, the Saudis announced a $8 billion play with money both 
from their public funds and their sovereign funds, a $20 
billion oil investment in Egypt.
    We sit here and wonder why we do not have as much influence 
there as some other countries do. It is in part because other 
nations in and around that region are spending numbers that 
dwarf ours.
    So I think we are at a moment in time where the United 
States is kind of an apple in a bowl full of oranges. The rest 
of the world has figured out that the sort of blunt, inflexible 
power of brute military strength is not as effective as the 
flexible and nimble nature of economic aid, energy aid, 
political aid. And we are chasing our tail around the world in 
part because other countries, from China to the Saudis to the 
Russians, are lapping us when it comes to that kind of smart 
money.
    So we should just remember that as much money as we spend, 
we are still in the bottom quartile of OECD nations when it 
comes to the amount of money we spend on international aid as a 
percentage of our GDP. So it is a big number, but we are a big 
country. When you compare it to other nations, we are, at least 
within our subset of first world nations, in the bottom fourth.
    So with that being said, let me ask about one particular 
line item that is significantly lower in this proposed budget. 
You can probably explain to me why.
    In the 2016 omnibus appropriations bill, we had a 
significant increase for humanitarian assistance. This is 
international disaster assistance, migration and refugee 
assistance, and food aid. But this budget from you proposes 
about a 17 percent cut. I know that humanitarian aid does not 
matter any less to the administration than it did in the last 
year, so just explain to me why we are looking at that cut and 
where that money is going to be made up.
    Ms. Higginbottom. Thank you, Senator.
    We were very pleased that in the fiscal year 2016 
appropriations bill, we did receive a generous increase in 
humanitarian assistance. As we looked to build this fiscal year 
2016 budget, cognizant of the Bipartisan Budget Act that set 
parameters for discretionary spending, we looked across our 
needs over a period of 2 years, and determined that with the 
additional resources that were provided and with the request 
that we made for 2017, we will be able to meet our expected and 
anticipated expenditures.
    I would note, though, that we are operating under the 
discretionary topline constraints, and we have had to make 
tradeoffs. While we think this is sufficient when we look 
across these 2 years, I think, to your earlier point, there are 
tradeoffs that we have made that are not exactly what we would 
want to absent those constraints.
    So we do feel confident about the funding level for 
humanitarian assistance across 2016 and 2017, but there are 
certainly certain needs we have had to make tradeoffs for.
    Senator Murphy. Just as an example, one of those tradeoffs 
is that the World Food Program in and around Syria is cutting 
off aid to refugee families that do not live in the actual 
refugee camps. So if you are living out in the streets of 
Jordan or Lebanon, you are at risk of having your emergency 
food assistance cut off. It is one of the choices that we have 
all made. We do not have enough money to fully fund that 
program.
    That has dire consequences for those families, and pushes 
many of them into the arms of the very groups that we are 
trying to fight.
    So I understand the difficult tradeoffs you have to make, 
but we should all be cognizant of the consequences to U.S. 
national security.
    I want to drill down on one very specific issue, and that 
is the issue of procurement within the State Department. You 
are subject to the Buy America law, as well as other agencies. 
But just in preparation for this hearing, I was just going 
through the list of waivers that have been requested. It is a 
pretty substantial list.
    This sort of has been a cause and crusade of mine for 
years, to put some teeth back into our Buy America 
requirements.
    I understand that you have sort of two strings pulling on 
you here. One, you want to be a good guest in-country and do 
business in-country, but you also do have a law that requires 
you to buy equipment, if you can, from U.S. companies. But you 
have submitted waiver requests for some pretty easy equipment 
to get some to get from U.S. companies--vehicles, for instance, 
which are regularly being shipped to the countries in which you 
are operating, but you are often buying from in-country sources 
rather than from American sources.
    Can you talk a little bit about your commitment to the Buy 
America law, and efforts that you may be able to take to reduce 
the number of waivers that are being granted to the State 
Department? We have a lot of great U.S. companies that would 
like to supply the State Department and often do not seem to be 
getting the chance.
    Ms. Higginbottom. Thank you, Senator.
    We take those responsibilities that we have seriously. It 
gets back, to a certain extent, to the previous part of our 
conversation about resources. Any waivers that we would 
request, we would want to do so very judiciously.
    Senator, we would look forward to following up with you or 
your staff to talk a bit about how we think about this and how 
we would approach it.
    But we want to do things in a way that abides by those 
requirements, but also takes into account our costs and how we 
do business overseas. So we are not looking for anything of a 
blanket nature. We want to do something very judiciously and 
selectively, and would be pleased to follow up with you to 
ensure that our request is understood and that we can answer 
your specific questions.
    Senator Murphy. I appreciate that. The reason that we have 
that Buy America law is that for the individual agency, it is 
often going to make sense financially, fiscally, to buy from a 
cheaper, non-American source. But the damage to the overall 
Federal Treasury, in the lost jobs, the lost tax revenue, the 
increased Medicaid costs, the increased unemployment costs, 
pretty quickly wipes out the savings to the agency.
    So I would look forward to following up with you on this 
issue. Thank you very much.
    Ms. Higginbottom. Certainly, Senator. Thank you.
    The Chairman.  Thank you.
    Senator Barrasso?
    Senator Barrasso. Thank you, Mr. Chairman.
    Madam Secretary, thanks for being with us.
    President Obama unilaterally pledged $3 billion for the 
U.N. Green Climate Fund. Congress has not authorized, has not 
appropriated any funding for the new international climate 
change slush fund.
    The most recent fiscal year appropriations bill provided no 
funding for the U.N. Green Climate Fund, specifically 
prohibited the transfer of funds to create new programs.
    Now media is reporting this morning that the administration 
deposited $500 million into the U.N. Green Climate Fund. It 
appears to be the latest example of the administration going 
around Congress because the American people do not really 
support what the President is doing with this initiative.
    So if the media reports are true, this is a blatant misuse 
of taxpayer dollars.
    So, first, did the administration deposit $500 million into 
the United Nations Green Climate Fund?
    Ms. Higginbottom. Thank you, Senator.
    We have reviewed our authorities and made a determination 
that we can make this payment to the Green Climate Fund.
    Senator Barrasso. The question is, did the administration 
today, as announced, deposit $500 million into the Green 
Climate Fund?
    Ms. Higginbottom. We signed an agreement with the World 
Bank to do that.
    Senator Barrasso. So when was that done?
    Ms. Higginbottom. Yesterday.
    Senator Barrasso. Okay. Tell me how the administration was 
able to divert and reprogram funds in order to meet the 
President's unilateral promise?
    Ms. Higginbottom. Senator, we reviewed the authorities and 
opportunities available to us to do that and believe we are 
fully compliant with that. We would be happy to follow up with 
you and your staff.
    Senator Barrasso. That would be good, because the United 
Nations Green Climate Fund is a new program. Given the 
Congress' prohibition on funding new programs, the question is 
what legal authority you at the State Department believe you 
have to make this transfer.
    Given the prohibition, do you agree that actions by the 
State Department officials violated the Antideficiency Act, 
which comes with criminal and civil penalties? I think you are 
going to have to deal with that.
    Ms. Higginbottom. Thank you, Senator.
    We do not believe we are in violation of the Antideficiency 
Act. Clearly, our lawyers and others have looked at our 
authorities and our abilities to do this, and we are happy to 
follow up with you.
    Senator Barrasso. With regard to the U.N. Green Climate 
Fund, Members of Congress are expected to be good stewards of 
taxpayer funds, not be providing funding to agencies that is 
not needed.
    What raises serious concerns, then, is the U.S. Department 
of State has at least $500 million sitting around in funding 
that is no longer needed for the purposes for which it was 
approved. Whether you have the legal authority or not to move 
it, you have chosen to move $500 million from programs for 
which it was approved.
    So if funding is no longer needed for the original purpose, 
then the money really should be returned to the U.S. Treasury.
    It is clear this committee must take a closer look at the 
State Department's entire budget and resource allocation if 
millions--$500 million--of surplus funds intended for specific 
programs are suddenly available to be spent on other 
priorities.
    So my question is, what specific accounts were so 
overfunded, allowing you at the State Department to divert 
these funds to the United Nations Green Climate Fund?
    Ms. Higginbottom. Senator, you mentioned President Obama's 
pledge. We also included in our fiscal year 2016 budget a 
request for funding for the Green Climate Fund, as we have in 
the fiscal year 2017 budget.
    So as we do our budgeting process, we did not look around 
and say where are excess funds we can put in this. We built it 
into our budget request.
    As we received the 2016 bill and made allocations to 
programs, we have the authority and the ability to fund that 
requirement.
    Senator Barrasso. What exact accounts were overfunded to be 
able to move the money out?
    Ms. Higginbottom. Senator, nothing is overfunded. We looked 
across the appropriations bills and made allocations based on 
what our budget was and what resources were provided to us.
    Senator Barrasso. I firmly oppose what the President is 
doing here in this misuse, I believe, of taxpayer dollars, I 
think completely in violation of the law. This will come to 
additional concerns raised to you and those who work at the 
State Department for this mismanagement.
    The United States national debt is currently $19 trillion. 
We have struggling communities across this country in need of 
help.
    There was a debate in Flint the other night. I just think 
it is hard to explain to taxpayers in struggling communities 
across our country, even places like Flint, that this President 
and this administration is willing to give $500 million as a 
handout to foreign bureaucrats instead of addressing real 
problems here at home.
    Thank you, Mr. Chairman. I have no additional questions.
    The Chairman.  Thank you.
    I know that this is an issue that there are highly 
divergent views on the committee. There could equally be 
something that people on this side of the aisle thought was 
semi-controversial.
    I do think the questions asked about how money is 
transferred like that would be good for all of us to know, 
regardless of how we feel about this particular issue. I do 
hope that something more forthcoming than what you just said 
will be shared in the near future, so that we can better 
understand that.
    It really sort of breaks down trust in the process when 
money like this can be transferred out, and yet they are not 
appropriated and there is no program. So I look forward to 
working with you on that.
    Senator Cardin. Mr. Chairman, I agree with you on that. We 
should absolutely know that.
    But my understanding is that came out of the appropriated 
account. So I am not sure there is a problem here.
    The Chairman.  So we had an appropriation for a Green 
Climate----
    Ms. Higginbottom. We have authorities to make the payment 
that we did to the Green Climate Fund.
    Mr. Chairman, to your point, we would be pleased to engage 
with the members of this committee and talk further about that.
    The Chairman.  Okay. Thank you.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    That last line of questioning is probably one of the many 
reasons why a State Department authorization is so important.
    Let me just thank you and Senator Cardin for focusing on 
this. This is something I wanted to do when I was chairman, and 
we worked together to try to get there. I think it is one of 
the most important things the committee can do.
    In the absence of it, we basically allow the State 
Department, with all their good intentions, to decide what is 
the course without congressional direction and oversight.
    I think about the world since 2002, which is the last time 
this body successfully acted the on reauthorizing legislation 
for the Department of State. We think about the 9/11 attacks 
that claimed the lives of so many Americans on American soil. 
We think about Afghanistan and Iraq.
    But when you are a hammer, everything looks like a nail. 
And the reality is that there is a lot more to our challenges 
globally than looking at everything with a hammer. From 
migration crises to global epidemics to, regardless of views, 
global warming, to attacks on U.S. facilities and deaths of 
Foreign Service Officers, there is an incredible array of 
issues.
    At least we should be equipping the State Department and 
USAID to deal with these challenges, even better to prevent 
them. But State and USAID, in my view, are not equipped. That 
is one of the primary reasons we have witnessed the growing 
militarization of American foreign policy, because DOD is 
equipped and authorized to do much.
    So we saw so much of what should be the foreign policy 
elements and statecraft move from the State Department to the 
Department of Defense. The Department of Defense is great to 
defend the Nation, but not to promote our foreign policy.
    I think we should credit our diplomats and development 
professionals for their work, which continues whether or not 
Congress passes authorizing legislation.
    Certainly, those who work for you, Madam Secretary, for the 
department and for the Nation, conduct the business of 
diplomacy and development, despite the risks of life abroad, 
out of patriotism and devotion and concern for future 
generations that characterize the very best in American values.
    So I want to thank all the men and women of the State 
Department and USAID, in particular. I think our entire body 
should recognize those outstanding services.
    What better way than to provide the resources, the 
guidance, and direction necessary to make this Nation speak 
with one voice, albeit in the many different languages in which 
our diplomats converse.
    Now, I support the State Department budget. I would like to 
have this committee create some structure for it. I am one of 
those who believes that this is an importantly powerful use of 
American resources in a way that can generate far more 
successes than even the power of our bombs.
    But I also think that the State Department needs to 
represent the diversity of the Nation. I am deeply 
disappointed. I have been working at this for 24 years, from 
the House of Representatives where I sat on the House Foreign 
Affairs Committee and in the 10 years I have been here 
privileged to serve on this committee in the Senate, and we 
just really have not made progress. We really have not.
    This has expanded over multiple administrations, 
Republicans and Democrats alike. One of the most diverse 
countries in the world, our potential is unlimited. 
Unfortunately, minority communities have been historically 
underrepresented in both the State Department and USAID.
    Now, last year, I offered language that Chairman Corker 
included in the State authorization bill that Congress, 
unfortunately, failed to enact. Those provisions expanded 
Pickering, Rangel, and Payne Fellowships to target State and 
AID minority recruitment. It expanded mid- and senior-career 
recruitment programs and initiatives, such as the International 
Career Advancement Program and the Global Access Pipeline. It 
strengthened oversight through additional reporting 
requirements on employment promotion and attrition rates, in 
addition to data on selection boards, mentorship, and retention 
programs, all things I think are necessary to institutionalize 
in order to have the diversity of America that is so important.
    Just by way of example, it is not diversity for diversity's 
sake, Mr. Chairman. When I was in China, it was incredibly 
powerful to see one of our diplomatic core, an African-American 
who had gone through the struggles of the civil rights 
movement, talking to human rights activists and political 
dissidents in China. That was a powerful opportunity to have 
those who try to create change in China, change you and I and 
Senator Cardin all of us would like to see, but that might not 
have come through the same experience as someone else.
    So at the same hearing last year, Madam Secretary, you 
presented a picture of the State Department that was innovating 
new programs for recruitment, retention, and advancement for 
minority populations. When we dug in, however, it was difficult 
to identify new initiatives, as opposed to expansion of 
existing initiatives.
    So I would like to dig in, in my final minute here. Are 
there any really new programs? Not expansion--and I applaud 
that you have included in your budget request some of what I 
tried to do last year. I will acknowledge that.
    But I just got, after insisting a lot, I got the State 
Department's latest diversity statistics for full-time 
employment employees as of December 31, 2015. Senior Foreign 
Service Hispanic Officers, 4.58 percent. Senior Executive 
Service, 2.6 percent. Foreign Service generalists, 5.49 percent 
Hispanic, 5.44 percent African-American. Foreign Service 
specialists, we do somewhat better there, 8.89 percent 
Hispanic--of course, that is a smaller universe--and 8.9 
percent African-Americans.
    That is not progress. The Hispanic community in this 
country is growing and already represents 13 percent of the 
overall American population.
    So can you speak to me about what we are doing--this is 
something I raised with you when you were up for your 
nomination and have raised since--to change this reality?
    Ms. Higginbottom. Senator, first, thank you for the words 
that you had for our department and for the Foreign Service 
Officers. It means a lot to them to hear people like you 
compliment their work.
    Second, on the issue we have discussed before, and that you 
have raised on the diversity of our work force, you are right. 
We are expanding some of things that we are doing, because we 
have identified the things that we think most effectively 
enhance the diversity of our work force.
    So like you and the bill last year, we are trying to expand 
the Pickering and Rangel fellowships because we see that as a 
particularly useful way of bringing in more diverse Foreign 
Service Officers.
    The year-over-year data and the trends are good and moving 
in the right direction, but we can only hire to attrition in 
the Foreign Service. We are only bringing in a couple hundred 
officers a year. So it is going to take us a while to see the 
impact of really bringing in a more diverse work force.
    I feel confident that we are moving in the right direction. 
We are not satisfied with it. We do not look at these numbers 
and say that we have accomplished our mission.
    So we are increasing our budget request by 50 percent to do 
some of those things. We are expanding--again, because we think 
it is effective, and we have seen the data--the paid internship 
program that brings in underrepresented groups for two summers 
of service in the State Department and hopefully brings them 
into the process.
    Secretary Kerry has asked all of his Assistant Secretary 
level and above officers to do domestic recruiting trips 
coordinated with our diplomats in residence, so we are hitting 
the right places. And we are using the tools that we have to 
make the progress that we need.
    But we know we have a big challenge. That is bringing in 
more people but then ensuring that they stay and that they are 
in those senior leadership positions.
    So we have just begun a partnership with the Cox Foundation 
to evaluate our mentorship and retention programs, because, 
again, we want to make sure we are using the limited resources 
we do have in the most effective way.
    So I am encouraged that there is progress. We are not 
satisfied with the result, and we have made it a top priority 
for the Secretary, for this administration, as reflected in the 
Quadrennial Diplomacy and Development Review.
    As always, Senator, we want to take your good 
recommendations and advice as we try to do this work, because 
we share the same objectives and share some of your frustration 
as well.
    Senator Menendez. Mr. Chairman, just a comment.
    I appreciate your answer, but after 24 years, I have heard 
much of the same. That is 2.5 decades almost.
    This starts at the top. Like any organization, if at the 
top you say to those below you, ``I will judge you in part by 
how you create diversity within your bureaus and departments,'' 
believe me, people will follow.
    We just have not had that commitment. So I look forward to 
working with you and the committee to make it happen, not for 
diversity's sake alone, but for what it brings to our foreign 
diplomacy.
    The Chairman.  If I could, before turning to Senator 
Gardner, I think, let us face it, when you come in as Secretary 
of State, you want to be known for the diplomatic breakthroughs 
that you make. It is rare that we end up having a Secretary of 
State that actually focuses on building a department and the 
caring and feeding of troops. I think we have had one or two in 
recent times over short periods of time.
    But that is why I think having a State Department 
authorization that stresses those things, and by law forces 
those kinds of things to be happening, with oversight, matters 
a great deal.
    I want to thank you again for leading that effort with 
diplomatic security on the front end, and Senator Cardin and 
the rest of the committee for caring about us seeing this 
through.
    Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you for being here to testify today.
    I just want to follow up a little bit on what Senator 
Barrasso was talking about. Did Congress approved the Green 
Climate Fund?
    Ms. Higginbottom. Senator, as I said previously, we 
reviewed with our lawyers the authorities we had and had 
provided resources in accordance with authorities to meet 
what----
    Senator Gardner. Right. But the fund itself, I mean, it 
went into an account. Did Congress approve that account that it 
went into?
    Ms. Higginbottom. We have the authorities that Congress 
provided us to make that payment.
    Senator Gardner. But did Congress approve it?
    Ms. Higginbottom. Did Congress----
    Senator Gardner. The account, the Green Climate Fund.
    Ms. Higginbottom. They passed an appropriations bill that 
we have reviewed the authorities of and have used to make this 
payment.
    Senator Gardner. If I understand how this works, money came 
out of somewhere. Where did it come from?
    Ms. Higginbottom. The funding is from the Economic Support 
Fund accounts.
    Senator Gardner. Which specific line items?
    Ms. Higginbottom. The way the account works----
    Senator Gardner. And the Economic Support Fund does what?
    Ms. Higginbottom. It supports programming in lots of 
different countries to address a lot of different issues 
related to economic growth and opportunity.
    Senator Gardner. So we took money out of there, $500 
million. All that money came from that program?
    Ms. Higginbottom. Correct. It is a very large account, some 
of which----
    Senator Gardner. And you put it into a----
    Ms. Higginbottom. Excuse me. Some of which is directed 
toward countries and programs, and others that the department 
has the authority to allocate as it sees fit.
    Senator Gardner. So the department sees that allocation as 
it sees fit to put it into a Green Climate Fund that Congress 
did not approve.
    Ms. Higginbottom. Congress provided us with the authority 
to make this payment.
    Senator Gardner. But let us be clear, Congress never 
approved a Green Climate Fund, correct?
    Ms. Higginbottom. We proposed a budget that included 
support for the Green Climate Fund. We have reviewed our 
authorities----
    Senator Gardner. Has that budget been approved?
    Ms. Higginbottom. In fiscal year 2016, the----
    Senator Gardner. Has the President's budget, though----
    Ms. Higginbottom. We received an appropriations bill for 
fiscal year 2016. And from those resources, and reviewing our 
authorities, have determined we could make this contribution, 
which we have done.
    Senator Gardner. But the Green Climate Fund itself, just 
yes or no, this is a pretty simple answer, was it approved by 
Congress, yes or no?
    Ms. Higginbottom. Did Congress authorize the Green Climate 
Fund, no. It is not a----
    Senator Gardner. Okay, so you did not authorize--so how 
then----
    Ms. Higginbottom. Because----
    Senator Gardner. If Congress did not authorize the Green 
Climate Fund, as you just said, how can $500 million go to--did 
you notify Congress of this?
    Ms. Higginbottom. The payment that we made did not require 
congressional notification in the traditional way that you 
would notify on funds through an appropriations process. 
Notifications have been made----
    Senator Gardner. Why would it not require----
    Ms. Higginbottom. Because the authority did not require it.
    Senator, we would be pleased to provide to you and other 
members of the committee the legal analysis and rationale for 
how we did this.
    Senator Gardner. Of the $54 billion the State Department 
has received fiscal year 2016, can all of that money be just 
reprogrammed by lawyers at the department?
    Ms. Higginbottom. The actual appropriation is $50 billion, 
not $54 billion, but no, it cannot.
    Senator Gardner. I am sorry, so it is--the actual is $54.59 
billion the actual fiscal year 2016, according to the documents 
we have from the committee.
    Ms. Higginbottom. Okay. So, no, no. There are certain 
accounts and provisions that have to be notified to Congress.
    Senator Gardner. So the Green Climate Fund was not 
authorized by Congress, no notification was given to Congress 
of this. When were you planning on notifying Congress of this?
    Ms. Higginbottom. Senator, as I said, we have reviewed the 
authority and the process under which we can do it, and our 
lawyers and we have determined that we had the ability to do 
it.
    I pledge to you and to other members, we will be happy to 
provide that legal analysis and the additional details.
    Senator Gardner. So nothing is overfunded, you stated in 
your answer to Senator Barrasso. But now, you would then 
testify I guess with $500 million gone, is the account that you 
just mentioned now underfunded?
    Ms. Higginbottom. Senator, I would not say it is 
underfunded. We proposed a budget that reflected the 
contribution to the Green Climate Fund, so as we allocated 
resources and planned for fiscal year 2016, and we submitted a 
budget that, actually, we received an appropriation above. So, 
no, nothing is overfunded, and we----
    Senator Gardner. So nothing is overfunded and nothing is 
underfunded now. Is that what you are saying?
    Ms. Higginbottom. Of course, we have to make tradeoffs in 
our budget all the time. Are we making $500 million worth----
    Senator Gardner. So let me just ask you this, though, 
because I think this is the heart of the distrust between the 
executive branch and the legislative branch. I would say this 
no matter who is in the administration. I do not care what 
party they are in. The challenge is we have a Constitution that 
makes it very clear, that says appropriations are carried out 
by the legislative branch.
    When you sit here before the American people and say that 
the Green Climate Fund was never approved by Congress and yet 
$500 million just went to it, I do not think that lawyers can 
replace the Constitution. Lawyers do not replace the 
constitutional requirements that Congress approve these funds 
in this appropriation.
    That money could have been--if there is money available, we 
have had arguments on the floor of the Senate for the past 
several weeks that, yes, this would take additional 
appropriations language, there is no doubt about it, but that 
$500 million could have been put toward Flint, Michigan, with 
the appropriate language.
    If this was money that was a tradeoff that could have gone 
to other nations, what about putting that toward Flint, 
Michigan? Sure, it would require appropriate language.
    What about putting that money into an opiate bill that we 
talked about on the floor? Yes, it would take language by 
Congress to make that law happen.
    But here we are, writing a $500 million check from an 
account in the State Department to create a Green Climate Fund 
that Congress did not approve when we have been having 
arguments about where we are going to spend this money.
    I think we wonder why the American people do not trust 
Congress, why they do not trust the administration? Here is a 
perfect example of why.
    A couple other questions for you. I think in your testimony 
you stated that there was a breach, I will quote, `` As the 
breach of our own unclassified email system in 2014 
demonstrated, our adversaries see information handled by the 
Department--and many other U.S. Government departments and 
agencies--as a desirable target. Protecting our information as 
we face increasingly sophisticated, frequent, and well-
organized cyberattacks is one of the Department's top 
priorities.''
    How much money is the State Department requesting in 2017 
for cybersecurity efforts?
    Ms. Higginbottom. Senator, I will have to follow up and 
provide the exact amount, but we did ask for an increase. And 
we are undertaking several different lines of effort to improve 
the security and safety of our systems.
    We have already implemented several measures, and we are 
working across the interagency with a team of experts to both 
re-architect some of the aspects of our system to make our 
information more secure, and also ensure we are learning across 
the Federal Government the best tactics to provide security.
    So we did ask for additional resources in our central IT 
fund to make some of those upgrades that we are planning. We 
have also looked across all of our systems, our consular 
systems, our unclassified OpenNet system, to identify those 
vulnerabilities. I will not speak in more detail about them, 
but it is a very comprehensive----
    Senator Gardner. How long did it take to completely root 
out the 2014 breach?
    Ms. Higginbottom. I am sorry?
    Senator Gardner. How long did it take to completely root 
out and figure out the 2014 breach?
    Ms. Higginbottom. I do not have the exact amount of time, 
but we can follow up with you. It may be appropriate to do it 
in different setting.
    Senator Gardner. Thank you.
    The Chairman.  Thank you.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you for being here, Deputy Secretary 
Higginbottom. I along with the rest of the committee look 
forward to hearing the explanation for how you are able to 
transfer funds into the Green Climate Fund. But I have to say 
that I, for one, am very glad that the United States is taking 
action to address climate change. I am very pleased that we 
joined more than 180 other nations in Paris to come to an 
agreement to address climate.
    In my home State of New Hampshire, we are experiencing one 
of the warmest winters with the least snow we have ever seen. 
It is having an impact on our ski industry. It is having an 
impact on our wildlife. It is having an impact on our energy 
use.
    For those people who do not think we should be taking 
action to address climate change, I hope they would look at the 
science and recognize that this is a very important issue, and 
it is very important for us in the administration and Congress 
to address it.
    So thank you very much.
    I want to ask about the strategy behind the new Global 
Engagement Center, which has replaced the Counterterrorism 
Strategic Communications Center. I sit on both the Armed 
Services Committee and this committee, and one of the things 
that has come up repeatedly has been the ability of our 
enemies, whether it be ISIS or other foreign powers, to use 
propaganda to promote their goals.
    When I ask questions about what we are doing in response to 
that, it is very hard to get an answer that acknowledges the 
coordination that needs to go on and how various departments 
and agencies are working together to address this concern.
    So can you talk about that, and can you also talk about how 
this engagement center is going to work with the Department of 
Homeland Security, how you are going to work with efforts in 
the Department of Defense to respond to both countering violent 
extremism and the other propaganda efforts that are underway?
    Ms. Higginbottom. Yes, thank you very much, Senator.
    We took a hard look at the work that we were doing to 
counter violent extremist messaging and propaganda, and in 
partnership with the private sector and others determined that 
we did not have the right approach. It was not as effective as 
we wanted it to be.
    So the Global Engagement Center, which is being led by a 
former Assistant Secretary from the Department of Defense, is 
really about building partnerships with both the private sector 
and countries around the world, because we recognize that while 
we have an important role to play in developing some content 
and working with our partners, we are not always the best 
deliverer of those messages, and we need to bring other people 
into this effort. That is a big part of the approach.
    As you point out, this is a government-wide effort, both 
countering violent extremism but also in the messaging. So we 
are ensuring that this model is really about building the 
partnerships and communication coordination and getting the 
appropriate messages out, delivered by the right people who are 
the more effective messengers.
    So we have really, really changed how we are doing this 
work and, in making this shift, consulted with some experts in 
Silicon Valley and other places who are very engaged in how you 
reach people over social media and brought those lessons-
learned into this as well.
    Senator Shaheen. So do we have any recent success stories 
that we can speak to, or specifics about how this is actually 
getting it done?
    Ms. Higginbottom. Senator, I hope we will soon. We have a 
lot of success stories about the sort of hub and spokes that we 
are establishing in different parts of the world, Southeast 
Asia, the Middle East, to be our partners. But we are just now 
standing up with Assistant Secretary Lumpkin and his team the 
real work.
    But we have laid a lot of the groundwork, so I hope we can 
update you soon with some more specific examples of the success 
we are having and why this approach is the right one to take.
    Senator Shaheen. I know that the Broadcasting Board of 
Governors is designated as an independent agency, but clearly, 
they are doing work that is very important to this effort. And 
the more coordinated we can be, the more successful we will be. 
So can you talk about how what this new center will be doing 
will be working with BBG on their efforts?
    Ms. Higginbottom. Thank you, Senator.
    The Under Secretary for Public Diplomacy, Rick Stengel, is 
on the BBG board and very engaged with their efforts and also 
leading our effort with Michael Lumpkin on the Global 
Engagement Center. So we have good coordination and means of 
communication there.
    It is an independent agency, but certainly, we should 
understand all the tools at our disposal, and it is in all of 
our interests to be engaged in this.
    So there is a good way for us to communicate and to do it 
in a way that is appropriate, given their independent nature.
    Senator Shaheen. I want to go back and pick up on the issue 
that Senator Murphy raised about the refugee situation, because 
as we look at the increasing numbers of refugees, the threat 
that that poses to Europe, to the EU, as we look at the 
challenges that our allies Jordan and Lebanon and Turkey are 
having with their refugee camps, I would urge that we should be 
increasing those budgets, rather than decreasing them.
    If one of our allies in the Middle East who has significant 
numbers of refugees falls apart because of the numbers of 
refugees in that country, it is going to be a whole lot more 
expensive than increasing the funding that we can make in those 
humanitarian efforts and providing the food and assistance that 
they will need.
    So can you speak to what more we ought to be doing to 
address that?
    Ms. Higginbottom. Thank you, Senator.
    The United States is the largest contributor of 
humanitarian aid in the world. We do not see any scenario in 
which that is likely to change in the short term. But what we 
have recognized, from the President to the Secretary and on 
down, is that to really deal with the scale of the crises we 
are facing right now, we need more people, more countries to be 
supporting the U.N. system, the humanitarian system, as well as 
to accept refugees, even those countries that are doing a lot 
already.
    Certainly, some of those that you mentioned, Jordan, 
Lebanon, others, are really on the frontlines. But a lot of 
countries are doing a lot, and we need even those countries to 
step up and do more.
    The President will be working, as will the Secretary, to 
engage their colleagues around the world to try to get those 
commitments.
    We see that as really the important step of making the 
system more efficient, aligning ourselves so that the U.N. 
system can be even more effective, but also trying to get 
additional countries into the space in whatever way they can. 
For some, it is providing education and training opportunities. 
For others, it would be accepting refugees. Certainly, 
humanitarian aid, as well.
    Senator Shaheen. I certainly support that effort. But it is 
hard to have conversations with some of the countries that we 
are calling upon who come back and say, well, the United States 
is accepting a very small number of refugees. The United States 
has not been willing to support--Lebanon, 25 percent of its 
population, for example, are refugees.
    So to say to a country like that, ``You need to be doing 
more,'' I think, given our size, given our budget, it is hard 
to make that argument in a way that really is heard as being 
serious.
    Thank you, Mr. Chairman.
    The Chairman.  Thank you. Thank you very much.
    Senator Cardin I know had some additional comments and 
questions.
    Senator Cardin. Well, I have some comments, Mr. Chairman. 
Thank you again for this hearing. The bottom line is, we need 
to pass an authorization bill.
    Just in regard to the climate fund, I just really want to 
make a couple statements. First, I agree with you on 
transparency and information to our committee. I fully support 
that. I think we need to be kept totally apprised.
    Climate change is a huge issue for the security of America. 
What happened in Paris with 190 nations coming together was a 
major milestone.
    As we move forward, we need to find a bipartisan path where 
we support these efforts. Many of us who strongly support what 
the administration is doing have reached out and will continue 
to reach out, so that we can have bipartisan support for 
America's leadership on this issue. It is important to our 
national security, as our military has suggested. It is also 
important for our environmental legacy and our economic future.
    Having said that, the legal authority in regard to 
supporting the climate fund was never in doubt. I would just 
remind the committee of the discussions on the omnibus 
appropriations bill. This was an issue that was in discussion, 
the President's authorities. It was clear that his authority 
would not be limited.
    It is not unusual to use these funds to contribute to 
international efforts. This is not a U.S. fund. This is an 
international fund. This is not something that we created, that 
the President created. It was international efforts.
    We have contributed to international refugee efforts that 
have been named, and we have not authorized specifically 
appropriations to those funds. The administration uses its 
legal authority that it has on appropriated funds.
    So I do not think this is that unusual, except it is 
controversial, I would agree with the chairman. And I would 
urge the chairman's advice on transparency be adhered to, 
because I agree with the chairman on that point.
    The Chairman.  Well, thank you very much, Senator Cardin. I 
appreciate that.
    I appreciate you being here today. I know there is a lot of 
work that we have to do together to craft something that we can 
actually put into law. Your testimony today has been helpful 
toward that end. We appreciate it. And we look forward to you 
continually working with us until we get something across the 
finish line.
    I know there will be a number of questions by other 
members. First of all, without objection, the record will be 
open through the close of business Thursday. If you could get 
back fairly quickly with responses, we would appreciate it.
    The Chairman.  Again, we thank you and the people who are 
with you for your service to our country.
    With that, the meeting is adjourned.
    Ms. Higginbottom. Thank you, Mr. Chairman.
    [Whereupon, at 11:34 a.m., the hearing was adjourned.]


                              ----------                              


              Additional Material Submitted for the Record

       Responses to Questions for the Record Submitted to Deputy 
     Secretary of State Heather Higginbottom by Senator Jeff Flake

    Question 1. In making this request, has the administration 
considered the potential impact that U.N. recognition of a Palestinian 
state in the absence of direct negotiations with Israel would have on 
U.S. national interests?

    Answer. We continue to oppose Palestinian efforts to join 
specialized agencies at the United Nations. We believe that Palestinian 
efforts to pursue endorsements of statehood claims through the U.N. 
system outside of a negotiated settlement are counterproductive.
    However, it does not serve the U.S. national interest to respond to 
Palestinian efforts or those of their allies by withholding our 
contributions to U.N. specialized agencies. Withholding of U.S. 
contributions could hinder the U.N. specialized agencies from carrying 
out work we value highly, limit U.S. influence in these organizations, 
and undermine our ability to pursue important U.S. objectives--such as 
working against anti-Israeli resolutions and initiatives.
    This request seeks Congressional support for legislation that would 
provide the administration with the authority to waive restrictions 
that currently prohibit paying U.S. contributions to the United Nations 
Educational, Scientific, and Cultural Organization (UNESCO). The U.S. 
position and support for a two-state solution has not changed.
    U.S. leadership in UNESCO is critical in combating anti-Israel 
bias, promoting freedom of expression, and countering violent 
extremism. U.S. leadership in UNESCO also supports implementation of 
the 2030 Agenda for Sustainable Development, including in the areas of 
education, gender equality, promoting the health of our oceans and 
improving weather forecasting, leveraging traditional donor resources 
by driving innovation and science and technology, and protecting 
fundamental freedoms and promoting the rule of law. During the 39th 
UNESCO General Conference in November 2015, the United States secured 
the removal of inflammatory language in an Arab Group resolution on the 
Western Wall, and we are consistently the only reliable ``no'' vote on 
anti-Israel resolutions, while expanding the number of member states 
who have supported our position in defense of Israel in key 
resolutions. The United States has also consistently been the primary 
supporter for UNESCO's unique Holocaust education program, which due to 
budget shortfalls is at risk of ending.


    Question 2. How are U.S. national interests served by contributing 
to UNESCO?

    Answer. U.S. leadership in the United Nations Educational, 
Scientific, and Cultural Organization (UNESCO) is critical in combating 
anti-Israel bias; promoting freedom of expression; countering and 
preventing violent extremism; supporting implementation of the 2030 
Agenda for Sustainable Development, including in the area of education; 
gender equality; promoting the health of our oceans and improving 
weather forecasting; leveraging traditional donor resources by driving 
innovation and science and technology; and protecting fundamental 
freedoms and promoting the rule of law.
    The administration continues to oppose unilateral actions in 
intergovernmental bodies that circumvent outcomes that can only be 
negotiated between Israel and the Palestinians, including Palestinian 
statehood. However, it does not serve the U.S. national interest to 
respond to Palestinian efforts or those of their allies by withholding 
our contributions to U.N. specialized agencies. Withholding of U.S. 
contributions could hinder the U.N. specialized agencies from carrying 
out work we value highly, limit U.S. influence in these organizations, 
and undermine our ability to pursue important U.S. objectives--such as 
working against anti-Israeli resolutions and initiatives.
    Over our objections, the member states of UNESCO voted to admit the 
Palestinians as a member state in 2011. The United States has not paid 
any part of the U.S. assessments to UNESCO for calendar years 2011 
through 2016 as required by current law. As a result of our arrears, 
the United States lost its vote in the UNESCO General Conference in 
2013.
    Because of specific benefits of full participation in UNESCO, the 
Department seeks Congressional support for legislation that would 
provide the administration with the authority to waive restrictions 
that currently prohibit paying U.S. contributions to UNESCO. The FY 
2017 request includes transfer authority to pay up to $160 million 
(approximately two years' worth) of outstanding assessments to UNESCO, 
should such a waiver be enacted.


    Question 3. This year's request includes $806 million for ``base 
budget'' funding and $1.58 billion for OCO-designated contributions to 
international peacekeeping missions. FY 2017 ``OCO missions'' include 
UNDOF, UNIFIL, ICTY, UNOCI, UNAMID, UNSOS, MONUSCO, MICT, UNISFA, 
UNMISS, and MINUSMA. All of the ``OCO missions'' detailed in the budget 
request have been in force for years, and some of them have been 
ongoing since 1974, 1978, and 2003.


   Does the Department intend to pay for all of these outlined 
        missions solely with OCO-designated funds?


    Answer. The request for all the missions listed above with the 
exception of the U.N. Organization Stabilization Mission in the 
Democratic Republic of the Congo (MONUSCO) is to fund them through OCO 
in FY 2017. The assessment for the U.N. Organization Stabilization 
Mission in the Democratic Republic of the Congo (MONUSCO) will be 
funded using both Enduring and OCO funds.


    Question 4. What criteria does the Department use in determining 
what missions will be ``OCO missions'' and which ones will not be?

    Answer. The FY 2017 OCO request reflects the Bipartisan Budget 
Agreement (BBA) increased allocation for OCO in both the CIO and CIPA 
accounts.
    The OCO allocation for CIO represents a slight expansion over past 
congressional practice, adding the U.N. special political missions in 
Libya and Somalia to the previously OCO-funded missions in Iraq and 
Afghanistan. The FY 2017 CIPA OCO request aligns with intent of the 
administration and the FY 2016 Statement of Managers which states that 
OCO funds may be used to prevent, address, and help countries recover 
from manmade-caused crises and natural disasters, particularly in 
Africa and the Near East.
    This informed the identification of nine ongoing peacekeeping 
missions and three war crime tribunals to be funded with OCO in FY 
2016. These were continued in FY 2017, with the following exceptions: 
the deletion of one war crime tribunal, ICTR, and one mission, UNMIL, 
which are both projected to close in FY 2017, as well as the addition 
of one mission, UNSOA, which per the appropriations language is funded 
by the Peacekeeping Operations account in FY 2016.


    Question 5. The budget request states that the OCO funding 
mechanism will allow ``the Department to deal with the extraordinary 
activities critical to our immediate national security objectives.'' 
How are some of these missions--which have been around for so long they 
practically are a part of our base budget--``critical to our immediate 
national security objectives?''

    Answer. The United States benefits from the work of United Nations 
missions worldwide, whether shorter-lived political mediation efforts 
or longer-term peacekeeping operations. The U.N.'s long-standing 
missions play an important role in preserving international peace and 
security, often in areas with asymmetric threats, supporting efforts to 
find enduring political solutions to seemingly intractable or volatile 
disputes, as we have seen in Lebanon and elsewhere in the Middle East, 
the Democratic Republic of Congo, Mali, and South Sudan, to name a few. 
These situations are often in flux, and the political and security 
environment can shift dramatically.
    Most missions have a very difficult task that requires grit, 
patience, and flexibility--to move a political peace forward even with 
the threat of conflict. South Sudan's mission started as support to 
state-building for a new nation, for example, but today it shelters 
over 200,000 civilians fleeing a civil conflict. In Mali, efforts for a 
political peace are bearing fruit even as extremists challenge peace 
across the region. Thus, we look hard at these operations, but when we 
support them it is because they are critical partners in support of 
U.S. objectives. We continue to support missions and actions that can 
help lead to the needed political solutions.
    We also know that missions that are winding down face critical 
transitions, such as in Liberia and Cote d'Ivoire, where force 
reductions reflect the on-going transfer of responsibility to the 
government and the people of those countries.
    Thus, we remain focused both on how current missions can be 
successful, and how they can be appropriately reduced or reshaped as 
the situation requires. As you know, we review the mandates of each 
peacekeeping mission constantly, and months before the Security Council 
considers a mandate renewal we analyze a mission's alignment of tasks, 
strategic objectives, and ability to deliver on the mandate. This 
analysis is informed by visits to peacekeeping operations by State 
Department officers.
    The United States continues to support renewals of the mandate of 
the United Nations Interim Force in Lebanon (UNIFIL), created in 1978, 
as an important element in promoting Lebanon's sovereignty and 
stability and countering violent extremism in the region. UNIFIL's 
presence in southern Lebanon, in support of the Lebanese government's 
extension of state authority, also helps contain tensions along the 
border with Israel. We also support this goal through our bilateral 
efforts to train and equip the Lebanese Armed Forces, which work 
alongside UNIFIL to maintain stability.
    The U.N. Mission in Liberia (UNMIL), established in 2003, has been 
a key part of the U.S. strategy to promote security and stability in 
Liberia. The Liberian security agencies, including the Liberian 
National Police, have now assumed responsibility for day-to-day 
security and require little to no UNMIL support in response to riots or 
other serious disturbances. Given these positive developments, the 
United States supported the Security Council's decision in September 
2015 to reduce UNMIL's military and police components, in anticipation 
of the transition of full responsibility for security to the Government 
of Liberia (GOL) on June 30, 2016. Based on the results of that 
transition and the overall situation in Liberia, the Security Council 
will consider in December 2016 whether to extend UNMIL's mandate or 
transition to some other form of U.N. support.


    Question 6. The Bipartisan Budget Act from last year sets 
``targets'' on OCO funding of $14.9 billion for each fiscal year 2016 
and 2017 for the international affairs budget function. These targets 
are not caps, and there is nothing that would prevent Congress from 
appropriating additional OCO funds beyond these targets. The 
administration's OCO request for international affairs for FY 2017 is 
$14,894,989,000.


   Do you see any reason why OCO funding for State and Foreign 
        Operations accounts should be increased beyond what you've 
        requested in this fiscal year?

   What challenges does it present to the State Department from a 
        budgeting perspective when Congress appropriates more in OCO 
        funds than the administration requested?


    Answer. The FY 2017 Request is in line with the OCO levels set in 
the Bipartisan Budget Agreement (BBA) of 2015. This agreement provided 
a higher percentage of the Department's resources in OCO than has been 
the case in recent years. Consequently, the Department shifted a number 
of programs into OCO that were traditionally funded from Enduring. In 
the FY 2017 Request, OCO funds support programs that will allow the 
Department of State and USAID to prevent, address, and recover from 
man-made crises and natural disasters and secure State and USAID global 
operations. While the Department acknowledges the current challenging 
fiscal climate which necessitated this shift from base to OCO, an 
appropriation that increases OCO above the FY 2017 request would prove 
challenging to accommodate, given the number of programs remaining in 
the Enduring request that could not fit an OCO definition.
    The BBA infusion of OCO funding also complicates budget execution 
because OCO funding must be managed separately from Enduring funds. OCO 
and Enduring funds must be kept separate and therefore accounting 
procedures must be employed to avoid comingling of funds. Additionally, 
OCO funding is intended for use in specific situations. This reduces 
the resources available to the Department of State and USAID when 
unexpected contingencies arise in programs and regions that do not 
generally program OCO funds.
    Base funds are critically important to ensuring long term support 
for critical Department of State and USAID programs. We look forward to 
working with Congress to re-establish the Department's Enduring base 
funding as we move toward the FY 2018 budget.
    Question 7. The Department is requesting $150 million in OCO-
designated funding for a new account called the ``Mechanism for Peace 
Operations Response,'' which will ``support critical requirements for 
peace operations and activities that emerge outside of the regular 
budget cycle.''


   Can you provide examples of instances in which these funds might be 
        used?


    Answer. In recent years, the Department has faced the recurring 
challenge of addressing unanticipated requirements in support of 
peacekeeping operations, including U.N. peacekeeping operations, and 
activities that emerge outside of the regular budget cycle. An example 
of an instance in which the Mechanism for Peace Operations Response 
might be used includes providing support, if needed, for the United 
Nations Mission in Liberia (UNMIL). As of the submission of the FY 2017 
President's Request UNMIL is projected to close, which is contingent 
upon an assessment of the political and security situation in the 
country. Should the U.N. Security Council decide to extend the mission, 
the MPOR account could support the assessment. More broadly, the 
Mechanism could provide support to missions involving the United 
Nations, regional security partnerships, collation peacekeeping 
efforts, or forces which promote the peaceful resolution of conflict.


    Question 8. Between the Peacekeeping Operations (PKO) account and 
the Contributions to International Peacekeeping Activities (CIPA) 
account, why is this new account necessary, especially considering that 
the administration is requesting $350 million in OCO funding for the 
PKO account and $1.58 billion in the CIPA account?

    Answer. The administration seeks the Mechanism for Peace Operations 
Response (MPOR) in order to have the flexibility to respond to urgent 
and unexpected peacekeeping requirements, both assessed (via the 
Contributions for International Peacekeeping Activities (CIPA) account) 
and voluntary (via the Peacekeeping Operations (PKO) account). The 
administration's request for the CIPA and PKO accounts are supporting 
known, identified missions and efforts; the CIPA request supports on-
going missions and the PKO request supports critical bilateral and 
regional peacekeeping, counterterrorism, and security sector reform 
efforts.
    MPOR will address the unpredictability continuously demonstrated in 
the requirements of the CIPA and PKO accounts. The Mechanism will 
provide the administration with the ability to respond expeditiously to 
unforeseen requirements without the risk of endangering critical, 
ongoing, budgeted peacekeeping efforts or other national security 
priorities.


                               __________

       Response to a Question for the Record Submitted to Deputy 
    Secretary of State Heather Higginbottom by Senator Cory Gardner


    Question 1. On March 8, 2015, the administration announced that it 
has contributed $500 million to the United Nations Green Climate Fund 
(GCF). As you stated during the hearing before the Senate Foreign 
Relations Committee, the GCF was not authorized by Congress, no funds 
were ever appropriated for the GCF, and the $500 million was 
reprogrammed from the Economic Support Fund (ESF). You also stated that 
this action was based on a legal analysis performed by the State 
Department prior to the release of these funds. By no later than March 
17, 2016, will you provide a detailed legal justification to the Senate 
Foreign Relations Committee pertaining to the $500 million disbursal to 
the GCF?

    Answer. The Department issued a grant to support the activities and 
programs of the Green Climate Fund (GCF) from resources provided in the 
Department of State, Foreign Operations, and Related Programs 
Appropriations Act, 2016 (Div. K, P.L. 114-113) (SFOAA). Specifically, 
Congress provided $4.3 billion in the SFOAA for the Economic Support 
Fund (ESF), which is appropriated to carry out chapter 4 of part II of 
the Foreign Assistance Act. These ESF authorities are used to fund a 
variety of foreign assistance programs, including environmental 
programs. The ESF account is a primary account through which the 
administration requested funding to support the GCF in the President's 
FY 2016 Budget Request. While over one-half of the ESF account is 
earmarked for specific programs or activities, the remainder is 
available for other programs to carry out the ESF authority in the 
Foreign Assistance Act and is available to provide grants to support 
environmental programs.
    The Department used a portion of the unearmarked ESF funds for the 
grant to support the GCF. This use of funds is consistent with the 
authorities in the FAA and the SFOAA, and it is clearly within the 
amounts appropriated for ESF in the SFOAA. Moreover, provision of ESF 
funds to support environmental programs, including through grants to 
multilateral trust funds, is consistent with longstanding practice.


                               __________

       Response to Questions for the Record Submitted to Deputy 
    Secretary of State Heather Higginbottom by Senator David Perdue

    Question 1. What progress has been made on the notification of all 
investigations? Is the IG notified of all appropriate investigations 
(define what you consider appropriate)? If so, how soon is the IG 
notified of the investigations? What progress is being made to ensure 
that there's more transparency in investigations at State?

    Answer. The Department recognizes and embraces the indispensable 
role the Department's Office of the Inspector General's (OIG) fulfills 
in providing oversight for diplomatic initiatives, programs, and 
personnel around the world. The OIG's expansive responsibilities to 
guard against fraud, waste, and mismanagement, inspect each of the 
approximately 260 diplomatic facilities worldwide, and conduct 
inspections evaluations, and audits in support of the Department's 
mission help to strengthen public trust by ensuring taxpayer dollars 
are spent in an effective, judicious manner.
    The Department has a longtime practice of referring cases to the 
OIG and working collaboratively with the OIG. Moreover, the Department 
continues to engage OIG in discussions on how the various investigating 
bodies within and outside the Department can coordinate and deconflict 
their efforts so as to avoid inefficiencies.
    In this regard, the Bureau of Diplomatic Security (DS)'s Office of 
Special Investigations (OSI) passes all cases involving the Senior 
Foreign Service, generally within one week of receiving an allegation, 
otherwise as soon as possible after the facts of wrong-doing can be 
established. The OIG frequently requests information on specific DS 
investigations, which DS has continued to fulfill.
    DS also coordinates closely with the Department of Justice in 
investigating passport and visa fraud, mishandling of classified 
information and other allegations of criminal misconduct.
    In addition to DS, other entities are specifically entrusted with 
investigating particular types of allegations that fall outside OIG's 
traditional core competences. For example, Hatch Act violations and 
whistleblower disclosure/protection are investigated and prosecuted by 
the U.S. Office of Special Counsel (OSC). Complaints of discrimination 
and harassment are investigated by the Department's Office of Civil 
Rights and adjudicated by the Equal Employment Opportunity Commission 
(EEOC) and/or federal district courts.
    The Merit Systems Protection Board (MSPB) adjudicates grievances 
and appeals of adverse personnel actions. Certain other matters may 
technically fall under the broad jurisdiction of the OIG but, as a 
practical matter, are more efficiently addressed at the administrative 
or management level or by the Department's Office of the Ombudsman. 
Examples include, but are not limited to, time and attendance 
violations, non-fraudulent misuse of government credit cards, and 
workplace conflict not involving violence or threats of violence.
    Employees are encouraged to report alleged misconduct and should 
feel free to bring their complaints to the attention of entities that 
are best suited to investigate such allegations.


    Question 2. Could you give me an update on where creating an 
independent IT network for the State IG stands today? Have improvements 
been made to ensure the security of the IG's networks?

    Answer. OIG's Security and Modernization Project (Project) is 
underway with migration scheduled for this summer. OIG's network and 
systems will be independently managed by OIG and will be separate from 
the Department's existing IT environment. The Project enhances OIG's 
independence and overall IT security. To successfully complete the 
Project on time, OIG continues to rely on the Department for its 
cooperation. As an interim step to ensure the security of OIG's network 
and systems, OIG and the Department executed an agreement requiring 
notification to OIG whenever the Department accesses OIG information. 
OIG is also working to establish an agreement with the Department to 
leverage OIG's remote access system as the primary means for OIG end 
users to access Department resources from the OIG IT environment.


    Question 3. Recently, the Department had an interesting, unintended 
experiment. Due to the federal pay freeze from 2011-2013, local staff 
wages fell below the 50th percentile at some posts. Since then, State 
has been steadily increasing wages since the freeze was lifted in 2014, 
and now has adopted a policy that local staff wages at every post will 
be at least the 60th percentile of the prevailing wage for employment 
in that labor market. When some of these local wages fell below the 
50th percentile, did you see a massive decrease in applications to work 
at American embassies? Did local employees quit en masse?

    Answer. The Department manages separate compensation plans at 
almost 180 different Missions all around the world; therefore, it is 
somewhat difficult to make generalizations.
    However, during the 2011--2013 wage freeze, the Department did 
experience an increase in attrition at almost all of our overseas 
Missions. There was a significant increase in attrition at some 
missions, especially for higher graded positions where more qualified 
and experienced employees have more employment options outside of our 
Missions. Many of our Missions also reported a higher number of 
preferred candidates refusing our salary offers. Other Missions 
reported a significant reduction in the number and/or quality of 
applicants they received as compared to before the wage freeze.
    No groups of employees quit en masse. However, many missions 
reported threats of strikes, work slowdowns, ``sit-ins'' and ``sick-
outs.'' After discussing the consequences of these actions with Locally 
Employed (LE) Staff, no serious actions actually occurred, but it was 
clear that at many of our posts our LE Staff wanted to send an 
unambiguous message to mission management of their intense 
dissatisfaction with the lack of wage increases. Several missions 
reported large numbers of LE Staff wearing black armbands or black tee-
shirts in protest. Universally, missions reported a steep decline in 
morale among LE Staff and a lingering sense of unhappiness and 
mistrust, which continues even now.
    Disturbingly, in the world's poorest regions, mission management 
reports genuine concerns about our LE Staff in lower graded positions 
falling below the poverty level. In places like Port au Prince, Haiti, 
Port Moresby, Papua New Guinea, and Managua, Nicaragua, for example, 
mission management report that our LE Staff in lower graded positions 
have difficulties feeding, clothing, and educating their families. The 
Department reacts quickly to changes in minimum wage and as soon as the 
wage freeze was lifted prioritized missions that had fallen furthest 
below the 50th percentile as compared to their labor market targets and 
made timely adjustments at these posts, when warranted.


    Question 4. Could you explain why the Department set a policy to 
pay local staff at posts at the 60th percentile or more of their local 
labor markets? What is the justification for the 60th percentile?

    Answer. The Department endeavors to compete with other progressive 
local, multi-national and international employers in each of the labor 
markets where we employ local staff in support of our Missions.
    After the three-year wage freeze, the Department developed a policy 
and strategy to adjust the compensation of local staff in their 
respective local labor markets. In an effort to recalibrate the market 
position of our employees in their local labor market, the Department 
began moving employees from the 50th percentile of their local labor 
market (an average position in the market) to the 60th percentile of 
their local labor market when setting salary rates. As we continue to 
calibrate labor market positions consistent with the policy, the 
Department developed criteria to determine how competitive a Mission 
needs to be in the local labor market based on a set of factors applied 
globally. These factors are: a) attrition, b) recruitment, c) economic 
and political uncertainty, d) unemployment, and e) unique labor market 
conditions. A review of these factors at each Mission is used to 
determine if placement should be at the 60th percentile or higher in 
order to recruit and retain the caliber of local staff needed to ensure 
our Missions advance our priority policy and programmatic objectives.


    Question 5. I understand that not all Embassy Construction money 
that was previously budgeted has been obligated. How much is 
unobligated of prior-year funds? Why has that money not been spent yet? 
Why is the State Department requesting a 6% increase in Embassy 
Construction funds, when you still have significant carry-over from 
prior years?

    Answer. Due to the multi-year nature of the Department's overseas 
construction projects, the Embassy Security, Construction, and 
Maintenance (ESCM) account is a no-year appropriation that is available 
until expended. The Department, with congressional encouragement, 
budgets the full cost of each project up front, but those funds are 
obligated over several years through the life of the project. 
Typically, 60-70 percent of the budget is obligated in the first year 
with the award of the construction contract. The remaining 30-40 
percent is obligated in subsequent years for ongoing project costs such 
as the Department's on site project supervision and construction 
security, telephone systems and furniture, and construction 
contingency.
    There is currently $8.6 billion unobligated in the ESCM account, of 
which $8.0 billion, or 93 percent, is dedicated to over 80 major 
construction and renovation projects that are in various stages of 
design or construction. Nearly $3 billion of this is for projects with 
planned construction contract awards by the end of 2016.
    All of the unobligated funding is associated with ongoing projects 
and will be obligated as those projects are completed. Therefore, it is 
not available for new projects to offset the amounts requested in the 
FY 2017 budget. In the event that projects have remaining balances upon 
completion, the Department will apply those funds to future projects 
via the congressional reprogramming process.
    The 6 percent increase requested in FY 2017 is associated with an 
increase in Overseas Contingency Operations (OCO) funding to support 
the final components of transition in Kabul. The FY 2017 ESCM request 
for Kabul is $282 million, which is an increase of $158 million over 
the FY 2016 appropriation. Excluding the increase for Kabul, the 
remainder of the ESCM request is actually a $23 million decrease from 
the FY 2016 level.


    Question 6. Per your commitment in the hearing, could you supply 
any information you have on these new embassy construction projects, 
including location, projected timeline, projected cost, and 
justification for each project? Is it possible to make this information 
more easily accessible in a single location?

    Answer. The FY 2017 request includes funding for the following 
projects:


Guatemala City, Guatemala
   Prior Year Funding: $37.5 million
   FY 2017 Request: $462.0 million
   Total: $499.5 million
   Anticipated Contract Award: July 2017
   Anticipated construction completion: Summer 2021

    The existing U.S. Embassy in Guatemala City, Guatemala, is one of 
the Department's most vulnerable facilities. It does not conform to 
current Department security, co-location, and operational requirements. 
The construction of a New Embassy Compound (NEC) is the only feasible 
alternative to provide a consolidated, secure, safe, and functional 
embassy.
    The NEC will include a new chancery, Marine security guard 
residence (MSGR), support and warehouse facilities, a utility building, 
perimeter security, parking, and community facilities.


Kampala, Uganda
   Prior Year Funding: $16 million
   FY 2017 Request: $473.0 million
   Total: $489 million
   Anticipated Contract Award: September 2017
   Anticipated construction completion: Fall 2021

    Some of the facilities in Kampala, Uganda, do not conform to 
current Department security, co-location, and operational requirements. 
Embassy facilities are also plagued with severe space shortages and 
overcrowding. This project is the only feasible alternative to provide 
a consolidated, secure, safe, and functional embassy in Kampala.
    This proposed project includes a new office annex building (NOX) 
with controlled access area (CAA) space, the renovation of the existing 
chancery and USAID annex, new support and community facilities, a new 
utility building, parking, and perimeter security.


Nairobi, Kenya Phase I
   Prior Year Funding: $8.4 million
   FY 2017 Request: $122.4 million
   Total: $130.8 million
   Anticipated Contract Award: September 2017
   Anticipated construction completion: Fall 2019
    Some of the facilities in Nairobi, Kenya, do not conform to current 
Department security, co-location, and operational requirements. The 
maintenance shops and support facilities are currently located off-
compound or in temporary structures and there are tenant desk positions 
located off-compound. In addition, the number of desk positions has 
nearly doubled since original occupancy, and the most recent 
rightsizing report projects further growth. This project is the only 
feasible alternative to provide a consolidated, secure, safe, and 
functional embassy in Nairobi.
    The Department will construct the Nairobi project in two phases. 
Phase 1 is in the FY 2017 request and includes a new support annex, 
maintenance shops, official parking, utility upgrades, and perimeter 
security facilities. Phase 2 is currently planned for FY2019 and will 
include an office annex building, a staff parking garage, renovation of 
existing offices, additional utility upgrades and additional perimeter 
security facilities.


New Delhi, India Phase 1
   Prior Year Funding: $47.3 million
   FY 2017 Request: $793.7 million
   Total: $841 million
   Anticipated Contract Award: September 2017
   Anticipated construction completion: 2024

    The existing U.S. Embassy in New Delhi, India is one of the 
Department's most vulnerable facilities. It does not conform to current 
Department security, co-location, and operational requirements. 
Redevelopment of the existing compound is the most cost-effective 
alternative to provide a consolidated, secure, safe, and functional 
embassy in New Delhi.
    The Department will redevelop the existing compound in two phases. 
Phase 1 is planned for FY 2017 and includes a new office building, 
MSGR, support annex and warehouse, a utility building, and perimeter 
security. Phase 2 will include the renovation of the existing chancery. 
This phase will take place after the completion of Phase 1, which is in 
2024.


Paris, France MSGR/Parking Garage
   Prior Year Funding: $5 million
   FY 2017 Request: $54.1 million
   Total: $59.1 million
   Anticipated Contract Award: September 2017
   Anticipated construction completion: October 2019

    The Department is in the process of replacing MSGRs with react 
times over thirty minutes. The current MSGR in Paris is approximately 
40 minutes away from the embassy. To improve reaction time, the 
Department will construct a new MSGR, an underground parking garage for 
official vehicles, and perimeter security on government-owned property, 
proximate to the chancery.


    Question 7. How many ongoing embassy construction projects are 
included in this year's request? Please specifically outline each 
continuing construction project, along with the projected timeline, 
cost, and justification for construction or upgrades. How often are you 
able to add a construction project that was not in your annual spend 
plan? How often are contractors' bids less than what you budgeted for 
the project?

    Answer. The FY 2017 request includes funding for the construction 
of several major projects that are currently under design. They include 
new embassy compounds in Guatemala City; new annexes and security 
upgrades in Kampala, Nairobi, and New Delhi; a Marine security guard 
residence and official parking structure in Paris; and the major 
rehabilitation of embassy facilities in Athens and Moscow. The request 
also includes construction funding for security and renovation projects 
in Kabul. These are the only construction projects for which funding is 
requested in FY 2017.
    In addition to the projects included in the FY 2017 request, the 
Department has 75 ongoing major projects that were funded in prior 
years. All of these projects are at locations that are among the 
Department's most vulnerable, with facilities that do not conform to 
security standards and/or do not meet co-location or operational 
requirements. The construction of new facilities is the only feasible 
option to provide a consolidated, secure, safe, and functional embassy 
or consulate. The complete list of projects in design or under 
construction, as of March 15, 2016, is detailed below.

                  Ongoing Embassy Construction Projects
------------------------------------------------------------------------
                                                  Total        Planned
            Post             Type of Project     Budget      Completion
                                                (1,000's)       Date
------------------------------------------------------------------------
Amman......................  NOX and               224,600       Oct-18
                              chancery rehab.
Ankara.....................  NEC............       528,100       Sep-19
Ashgabat...................  NEC............       271,670       Jul-18
Asuncion...................  NEC............       234,682       Aug-20
Athens.....................  Compound rehab.       317,000       Feb-21
Beijing....................  Annex..........       135,100       Mar-16
Beirut.....................  NEC............     1,167,100         2022
Belmopan...................  MSGR...........        21,700       Apr-17
Belo Horizonte.............  COB............        42,292       Oct-17
Berlin.....................  Annex rehab....        91,300       May-18
Bishkek....................  Annex..........       170,800       Oct-16
Brasilia...................  Housing rehab..         2,300       Jan-17
Brazzaville................  Warehouse/shops        21,900       Feb-17
Brussels...................  NATO HQ fitout.       132,508       Sep-16
Colombo....................  NEC............       342,100       Jan-20
Dhahran....................  NCC............       339,300       Sep-19
Dhaka......................  Housing                 9,460       Jul-17
                              redevelopment.
Dushanbe...................  Warehouse......        21,500       May-17
Erbil......................  NCC............       655,871          TBD
Georgetown.................  Chancery/              50,800       Oct-16
                              Warehouse
                              rehab.
Guatemala City.............  NEC............       499,500       Aug-21
Guayaquil..................  MSGR...........        30,600       May-17
Harare.....................  NEC............       293,485       Jun-18
Hong Kong..................  Housing rehab..        32,000          TBD
Hyderabad..................  NCC............       364,896       Nov-20
Islamabad..................  NEC............     1,088,840       Mar-18
Jakarta....................  NEC............       497,800       Jun-18
Jeddah.....................  NCC............       287,600       Sep-16
Kabul......................  Annex/Housing..       967,900       Nov-17
Kampala....................  Annex..........       488,700       Oct-21
Karachi....................  Housing........        67,100       May-17
London.....................  New Embassy....     1,030,000       Dec-16
Manila.....................  Chancery rehab.       173,366       Apr-20
Maputo.....................  NEC............       284,117          TBD
Matamoros..................  NCC............       192,500       May-19
Mbabane....................  NEC............       141,000       Apr-16
Mexico City................  NEC............       943,065       Oct-21
Montevideo.................  Chancery              112,800       Mar-20
                              renovation.
Montreal...................  COB............        44,343       Oct-16
Moscow.....................  Annex..........       280,700       Aug-17
Moscow.....................  Compound rehab.       231,676       Oct-21
Moscow.....................  Housing rehab..         4,800       Sep-16
Moscow.....................  Compound               76,255       Oct-21
                              housing rehab.
Nairobi....................  Annex (Phase I)       130,823       Nov-19
N'Djamena..................  NEC............       230,032       Oct-16
New Delhi..................  NEC............       841,000         2024
Niamey.....................  NEC............       287,811       Apr-20
Nouakchott.................  NEC............       213,892       Oct-16
Nuevo Laredo...............  NCC............       156,000       Sep-17
Oslo.......................  NEC............       243,500       May-16
Paramaribo.................  NEC............       165,900       Aug-16
Paris......................  MSGQ/parking           59,042       Oct-19
                              garage.
Port au Prince.............  Housing/support       123,631       Apr-16
                              facilities.
Port Moresby...............  NEC............       212,300          TBD
Porto Allegre..............  COB............        59,245       Sep-16
Pristina...................  NEC............       261,500       Oct-17
Rangoon....................  American Center        26,277       Mar-17
                              rehab.
Recife.....................  Consulate              52,513       Nov-18
                              Office
                              Building.
Reyjavik...................  NAB fitout.....        62,404       Jul-18
Sanaa......................  Annex/housing..       278,000          TBD
Sanaa......................  DTFS...........        86,900          TBD
Sarajevo...................  Warehouse/shops        12,100       Aug-16
Shanghai...................  Consular               19,500       Dec-17
                              expansion.
Shenyang...................  COB............        17,421       Jan-18
Taipei.....................  NOB............       236,468       Dec-16
Tel Aviv...................  Chancery rehab.        55,100       Aug-18
The Hague..................  NEC............       220,000       Jun-17
Tijuana....................  MSGR...........        19,000       Sep-17
Tokyo......................  CMR rehab......         7,500       Feb-17
Tokyo......................  Housing rehab..         3,000          TBD
Vienna.....................  OSCE lease             39,570       Mar-16
                              fitout.
Vilnius....................  Phase II.......        42,200       Jul-16
Wellington.................  Chancery rehab.        65,750       Feb-17
Wellington.................  CMR rehab......         4,500       Dec-17
Wuhan......................  COB............        26,636       Nov-17
------------------------------------------------------------------------



    It is not uncommon for contractors' bids to be less than the 
government estimate from which the project budget was based. Such 
``savings'' on an individual project would not be enough to add a new 
project that was not in the annual spend plan, but an accumulation of 
several of those lower-than-expected bids, combined with savings from 
completed projects (final cost of a project was below the budget), may 
allow the Department to advance a project that was planned for a later 
year. Any such realignment of savings from one project to another 
requires Congressional notification.


    Question 8. What is the agency participation rate for the foreign 
assistance dashboard?


   What agencies lag behind in sharing their data, and what is the 
        reason for the delay in sharing this information with U.S. 
        taxpayers? What is the status of the State Department's own 
        data on this site?


    Answer. ForeignAssistance.gov contains data from 10 agencies 
representing 98 percent of the U.S. foreign assistance portfolio. These 
10 agencies are the Department of State; USAID; the Millennium 
Challenge Corporation; the Departments of Agriculture, Defense, Health 
and Human Services, and the Treasury; the African Development 
Foundation; the Inter-American Foundation; and the Peace Corps.
    The Department is engaged with non-reporting agencies and working 
to improve the quantity and quality of data reported by agencies. 
Progress is being made incrementally; however, there are a number of 
challenges to reporting including that agencies are often compiling and 
reconciling data from multiple systems that were not designed to 
collect or report on the detailed level of reporting currently 
requested.
    The Department of State chartered a Foreign Assistance Data Review 
(FADR) working group to understand and document issues related to 
managing and tracking foreign assistance within the Department and 
recommend a path forward. The first phase of the FADR produced a report 
that examines the current foreign assistance data environment and 
recommends improvements. The full report is available online at http://
www.state.gov/documents/organization/250931.pdf.


    Question . I was disappointed that the State Department did not 
meet its international commitment to post its own foreign assistance 
data online by December 2015.


   Do you have a plan for the State Department to comply with this 
        commitment? And would you please share it with the committee?


    Answer. The Department of State has been reporting core data fields 
to the International Aid Transparency Initiative (IATI) standard since 
2012. While we are not reporting every one of the IATI fields, the 
Department has made great progress in opening up and publishing its 
foreign assistance financial records, performance data, evaluations, 
and budget planning data over the last few years.
    To improve its IATI data reporting, the Department chartered a 
Foreign Assistance Data Review (FADR) working group to understand and 
document issues related to managing and tracking foreign assistance 
within the Department and recommend a path forward. The Office of 
Management Policy, Rightsizing, and Innovation (M/PRI) and the 
Application and Data Coordination Working Group (ADCWG) established the 
FADR in partnership with the Office of U.S. Foreign Assistance 
Resources (F), Bureau of the Comptroller and Global Financial Services 
(CGFS), and Bureau of Information Resource Management (IRM), and my 
office, as well as functional and regional Bureaus and Offices. A 
representative from office participates in the ongoing review process, 
and I am receiving regular updates from F and M on progress.
    The first phase of the FADR produced a report that examines the 
current foreign assistance data environment and recommends 
improvements. The full report is available online (http://
www.state.gov/documents/organization/250931.pdf). The FADR group is 
continuing its work to carry out these recommendations.


    Question 10. In the 2015 Quadrennial Diplomacy and Development 
Review (QDDR), the State Department pledged to enhance the use of data 
and diagnostics in decision-making. Can you tell us where these efforts 
stand, and what is included in the FY 2017 budget request to improve 
data collection and analysis?

    Answer. The Department remains committed to enhancing its data and 
its data analytics capacity. We recognize the importance that data and 
its analysis should play in policy and decision-making as well as in 
operations, planning, monitoring, and evaluation. The Department has 
recently chartered a small group of qualified data science officers and 
researchers, led by a senior Foreign Service Officer (FSO) who has been 
assigned as the Director of Data Analytics. This group aims to serve as 
a hub for data analytics by creating a community of practice dashboard 
that connects analytical offices.
    It is also performing limited data analytics functions for the 
Department and supporting other bureaus and offices that do not have 
analytical capability. Furthermore, per the 2015 QDDR, the Department 
continues to expand on the foundation of its Enterprise Data Quality 
Initiative and build a common data platform for Department use.
    On a broader scale, over $12 million was requested in the 2017 
budget to further build the Department's broader data analytics 
capacity. This funding would support: 1) the Global Engagement Center's 
efforts to counter extremist groups' messaging; 2) the Department's 
focus on rightsizing overseas staffing; 3) ensuring data is accurate 
and up-to-date, particularly in Post Personnel, eCC, Active Directory, 
and the Real Property Application; 4) analyzing public diplomacy data 
to advance our US foreign policy priorities and American interests, 
and; 5) streamlining the budget and planning processes at the 
Department.


    Question 11. The QDDR called for a broad discussion on physical 
risk with Congress and the American people, as well as adapting to a 
culture that supports programmatic risk to encourage innovation. Where 
do you believe we stand today in the discussion on these two sets of 
issues?

    Answer. Secretary Kerry has raised the issue of the risks and 
dangers inherent in conducting diplomacy in many parts of the world 
today. The Secretary has highlighted this issue in remarks to public 
audiences--including his October 2015 speech at Indiana University--and 
in conversations with Congress. In line with the QDDR recommendation, 
we are currently planning to intensify our engagement with Congress, 
the private sector, NGOs partners and others about the realities of our 
work and the way we manage risk.
    In March of last year, the Department published a formal Risk 
Management Policy , which emphasizes that advancing U.S. foreign policy 
objectives involves diverse types of risk and requires employees to 
engage in risk management for the decisions and activities within the 
scope of their duties. A central goal of the new risk management policy 
is to guide employees as they identify, manage, and mitigate risks in 
developing policy and implementing programs. Since the guidance was 
published, the Department has worked to institutionalize the new 
policy, and implement a standard approach for managing and mitigating 
risk across our work.


    Question 12. Can you help me understand the drivers of the increase 
in the State and USAID budget from FY2006 to today? Are there areas 
where we could find some cost savings?

    Answer. Increases in spending by the Department of State and USAID 
since 2008 are primarily due to a greater scale and amount of conflicts 
and natural disasters in the world. This has requited increased 
investments in humanitarian aid, new large U.S. government 
interventions in countries where we previously did not have 
opportunities, and additional interventions to maintain the safety of 
our employees stationed overseas.
    While in 2006 these increases were driven largely by opportunities 
for diplomacy and development in Afghanistan, Iraq and Pakistan, we 
have seen continued turmoil and change around the world, including the 
earthquake in Haiti; global food security crisis; the Arab Spring, 
including the tragic events of Benghazi; outbreaks of Ebola and Zika; 
the rise of Da'esh and other extremist groups. Many of these 
extraordinary needs have historically been addressed through 
supplemental appropriations.
    The Department and USAID have expanded foreign assistance programs 
in recent years to address increasing global challenges, including 
addressing conflict and insecurity in Syria, Iraq, South Sudan, Central 
African Republic, Democratic Republic of the Congo, and elsewhere. As 
part of this effort, humanitarian assistance needs have greatly 
increased, and we have responded robustly. In recent years, we have 
also expanded resources to address global health needs, the underlying 
causes of the migration crisis in Central America and to invest in 
Asia, as part of the administration's Asia Rebalance effort.
    The increase in the Diplomatic Engagement portion of the State 
Department budget from FY 2008 to the FY 2017 request is largely 
attributable to an increase in funding for security projects over this 
timeframe. Authority for non-security spending has remained essentially 
flat, while security related spending has more than doubled.
    There are three major factors which have contributed to the 
increase in security related authority:


   The Department's priority on maintaining a presence in conflict 
        areas has required funding to protect our persons and assets in 
        those areas.

   The military draw-down in Iraq and Afghanistan has required that 
        security of American persons and assets be provided by State 
        resources.

   Internal reorganizations have moved security related spending to a 
        handful of accounts, increasing these security accounts and 
        reducing the administrative accounts from which the funds were 
        moved.


    Question 13. Are all agencies fulfilling their commitments under 
the CSCS program? Please provide details and discuss any obstacles that 
may exist to meeting the full $2.2 billion CSCS level called for by the 
post-Benghazi Accountability Review Board. Has a failure of others to 
pay for this expense led to an increased cost to State for maintenance? 
What is being done to improve the effectiveness of this cost sharing 
mechanism?

    Answer. While the vast majority of agencies are fulfilling their 
commitments under the Capital Security Cost Sharing (CSCS)/Maintenance 
Cost Sharing (MCS) programs, a few agencies are not.
    Some agencies choose to fund improvements to their spaces in 
overseas facilities to meet their own unique requirements outside of 
the CSCS/MCS program. As spelled out in OBO's annual program guidance, 
these are treated as agency-specific projects, and do not qualify as 
credits to MCS. Yet one agency unilaterally claimed $68M of 
unauthorized ``maintenance credits'' against its FY 2014 and FY 2015 
CSCS/MCS bills for work they performed in their spaces in a number of 
State facilities.
    In addition to the unauthorized maintenance credits, the same 
agency's FY2015 congressional budget request under-funded its FY 2015 
contribution by $62 million, and subsequent Congressional action 
reduced their FY 2015 funding by an additional $25 million. This 
resulted in a combined FY15 deficit of $87 million. Their FY 2016 
appropriation reduced the request by $50 million. As a result, that 
agency will have underfunded the program by $205 million over FY 2014-
2016.
    A second agency had its appropriations for CSCS/MCS reduced by $7.5 
million in both FY 2015 and FY 2016, for a total of $15 million over 
the two-year period.
    The FY 2014 shortfall did result in State paying $38 million more 
than its fair share of the costs for the MCS program. In FY 2015, the 
shortfall resulted in the deferral of a critical rehabilitation project 
in Manila, Philippines.
    The Department believes that the cost sharing program is effective 
as currently structured, as long as agencies pay their fair share as 
required by legislation. Since its inception in FY 2005, the program 
has allowed the Department to fund more projects and relocate many more 
people to safe, secure, and functional facilities than would have been 
otherwise possible; as of March 2016, 35,322 people have been moved. In 
addition to delivering a robust funding source for embassy construction 
and maintenance, the cost sharing mechanism provides an incentive for 
agencies to rightsize their overseas presence.
    Fully achieving the goals of the program is impeded by the failure 
of some agencies to pay their fair share--due either to internal 
decisions by the agency to pay less than the amount due, or to Congress 
failing to appropriate the amount requested by the agency to pay their 
bill. Congress has provided a remedy for such actions in Section 
7004(a) of the Department of State, Foreign Operations, and Related 
Programs Appropriations Act,2016 (Div. K, P.L. 114-113), which states 
that:


         . . .  a project to construct a diplomatic facility of the 
        United States may not include office space or other 
        accommodations for an employee of a Federal agency or 
        department if the Secretary of State determines that such 
        department or agency has not provided to the Department of 
        State the full amount of funding required . . . 


    To date, the Department has not taken such action, as we have been 
working with the tenants to resolve their delinquent balances. However, 
the Department is strongly considering invoking Section 7004(a) this 
fiscal year should tenant agencies fail to provide their full share of 
the program.


    Question 14. A June 2011 GAO Report on Overseas Comparability Pay 
found that allowances and differentials when FSOs are abroad result in 
higher compensation, on average, for overseas staff. In light of this 
finding, please explain the justification for providing additional 
compensation to overseas staff. Advocates of full OCP argue that its 
absence could affect diplomatic readiness by increased attrition and 
recruitment challenges, and that it is ``critical for the Department's 
Foreign Service competitiveness in the workplace.'' What evidence can 
you provide to support this claim, particularly given that applications 
to the Foreign Service far exceed the number accepted each year?

    Answer. As noted in the 2011 GAO report, overseas allowances and 
differentials are not intended to compensate for the lack of 
comparability pay for Foreign Service Officers serving overseas. 
However, the GAO report still makes this link, a characterization the 
Department has never agreed with. We raised our disagreement directly 
with the GAO multiple times, including in writing, when they were 
finalizing the 2011 report.
    Excluding positions outside the continental United States from 
locality pay had several unintended consequences for the Foreign 
Service, essentially penalizing employees financially for service 
overseas. This pay disparity has been partially addressed with the 
implementation of the first two tranches of Overseas Comparability Pay 
(OCP). However, as we wrote to the GAO, their report did ``not make any 
effort to discuss the grave reasons for the `range of allowances and 
differentials' overseas. The uninformed reader may have no idea that we 
are not simply paying for the sake of pay.''
    Members of the Foreign Service serving overseas are entitled to 
certain allowances and differentials that are calculated based on their 
base pay. Each of these allowances and differentials serve a distinct 
purpose established by Congress. One example is the cost of living 
allowance (COLA), which ensures that employees retain the same buying 
power they would have if they were assigned to Washington, DC.
    The pay disparity for members of the Foreign Service serving 
overseas undermines the utility of the COLA. COLA is meant to normalize 
the ability of a member of the Foreign Service to buy a basket of 
consumer goods and services at his or her post of assignment compared 
to Washington, DC. The COLA does not compensate for the loss of 
locality pay overseas, in that it is fully consumed by the higher 
prices for consumer goods and services at that post. In addition, the 
COLA is calculated based on non-locality adjusted basic pay rates. 
Thus, a comparably situated member of the Foreign Service in 
Washington, DC, has more disposable income than his or her counterpart 
at a post abroad who receives a COLA.
    In addition to retaining the employee's buying power through the 
COLA, other allowances and differentials are used to reimburse 
employees for specific conditions and situations they encounter due to 
the particular nature of certain Foreign Service assignments. (e.g., 
poor access to quality medical care, exposure to illnesses and 
diseases, and severe climate).
    If OCP were eliminated, employees serving overseas would 
immediately take a pay cut of just over 16 percent of their base pay 
and a similar amount on all allowances calculated on base pay. It is 
true that the Foreign Service attracts thousands of applicants yearly. 
However, we still compete with other U.S. agencies, international 
business and finance, international organizations, and non-government 
organizations for the same limited pool of highly qualified candidates 
interested in careers overseas who are willing to endure sometimes 
difficult and dangerous conditions as well as separation from family 
and friends.
    That competition can be intense. Especially when non-USG entities, 
particularly international business and finance, can quickly adjust pay 
and benefits to attract and retain top talent. Some elements of DoD as 
well as other agencies' personnel have received full overseas 
comparability pay (currently 24 percent) since 2003, which raises 
issues of equity.
    We are extremely proud of our current ability to recruit and retain 
a highly-qualified workforce at the Department of State. However, we 
have two recent surveys that indicate this picture would change if OCP 
were to be eliminated or not fully implemented:
    The first, conducted in 2012 by the Department of State, indicated 
that:


   More than one-third of officers would consider employment outside 
        the Foreign Service if the Department cannot deliver the final 
        tranche of OCP.

   More than half of Foreign Service personnel would be less likely to 
        bid on overseas assignments in the total absence of OCP.


    Question 15. The growing dependence on OCO to fund America's 
development and diplomacy programs means that a broad range of programs 
and accounts that are designed to meet long-term commitments, and 
historically were funded in the base budget, now receive a significant 
share of their funding through a temporary funding mechanism. Given the 
strain on discretionary resources, this flexibility is important in the 
short-term but has led to a significant shift in funding from base to 
OCO for certain programs. For example, nearly 100 percent of U.S. 
assistance to Jordan is funded through the OCO account in this year's 
budget request. In another example, the line item for ``Contributions 
for International Peacekeeping'' went from being fully base-budget 
funded in FY15 to now 66 percent of the amount has been shifted to OCO 
in FY17. Could you expand on the administration's thinking behind these 
major shifts in funding for long-term programs specifically?

    Answer. The OCO portion of the FY 2017 Request for the Department 
and USAID is $14.9 billion, consistent with the Bipartisan Budget Act 
of 2015. The Department is also concerned about the shift in balance 
between base and OCO funding, particularly the substantial increase in 
OCO funds as compared to base. The Department looks forward to working 
with Congress to restoring enduring funding levels as we move toward 
the FY 2018 budget. The President's Budget actually anticipates this by 
planning for the restoration of $8.7 billion to the International 
Affairs base budget in FY 2018.


    Question 16a. How does the current allocation of foreign 
assistance, both regionally and by sector, reflect larger U.S. foreign 
policy priorities?

    Answer 16a. The President's FY 2017 Request for the Department and 
USAID includes $34.0 billion for foreign assistance programs. This 
request supports key national security, foreign policy, and development 
mission objectives. Regionally, the request includes $4.0 billion to 
counter Da'esh, respond to the crisis in Syria, and support 
humanitarian needs in the region. It requests $750.6 million to bolster 
the U.S. Strategy for Engagement in Central America and $873.0 million 
to support economic development and security efforts as part of the 
Asia Rebalance effort. It also requests $7.1 billion to support our 
goals in Africa, including advancing democracy, health, education, 
economic growth and security throughout the region.
    As part of these regional efforts, the Department and USAID are 
also requesting funds to support important investments in critical 
sectors across the globe. The request includes $2.7 billion for 
democracy, human rights and governance programming, one of the core 
strategic goals of this administration. It also includes $983.9 million 
to support the Global Climate Change Initiative and $561.8 million for 
basic education. These are just examples of the important cross-cutting 
programs requested as part of the FY 2017 Request. All of these 
investments, plus many others, are critical to ensuring the success of 
our broader foreign policy and development goals.


    Question 16b. How could aid, as a tool for foreign policy, be 
allocated to more effectively address strategic priorities?

    Answer 16b. The Department of State and USAID always work to ensure 
the funds are allocated to address strategic priorities. The 
development of the President's annual budget request for the Department 
of State and USAID begins at embassies and USAID missions around the 
world. These requests are based on country-specific priorities and 
strategies and are organized by mission objectives when they are 
submitted to the Department of State and USAID in Washington, DC. 
Department and USAID leadership then review the submissions from the 
embassies and missions overseas, and make tough decisions to ensure the 
request supports the most critical regional and global strategic 
priorities. In coordination with the Office of Management and Budget 
this results in a final budget request that advances the U.S. 
government's most important foreign policy, national security, and 
development objectives. The President's request reflects these 
priorities when it is submitted to Congress each year.
    Once an appropriation bill is passed, the allocation of funds must 
abide by funding directives included in the bill as well as the 
Statement of Managers, as required. Within these guidelines, the 
Department and USAID work to ensure the best allocation of resources in 
support of strategic foreign policy priorities.
    Along with other outcomes, the Foreign Assistance Data Review 
(FADR), currently underway, will allow the Department and its 
constituent offices to respond to demands for more and better data to 
manage activities, coordinate more effectively with others, make data-
driven decisions, and meet transparency commitments.


    Question 16c. How will you manage foreign assistance programs 
differently, if at all, in the absence of congressional directives?

    Answer 16c. The Department of State and USAID have many shared 
priorities with Congress. While many congressional funding directives 
support these shared goals, including advancing democracy or education 
across the globe, we must be able to respond to changing circumstances 
and adapt as needed. Often times the world looks different from the 
time we submit our request until the time we receive our final 
appropriation. We need to remain nimble.
    In the absence of congressional directives, we would allocate 
funding according to the President's request, which sustains projects, 
programs, and activities supported by Congress, taking into account 
changing circumstances, prior year funding availability, and any new 
needs that have emerged since the request was submitted. This would 
reduce our dependence on transfer authorities, which, while incredible 
valuable, can be time consuming to execute and thus hinder our ability 
to move funds and respond quickly.


    Question 17. Roughly 10 percent, or $310 million, of State's 
Development Assistance program budget is going to support the Global 
Climate Change initiative (GCCI). With all of the development 
challenges in the world today, do you think it is appropriate to be 
spending 10 percent of the overall on climate change?

    Answer. Climate change represents a substantial threat to U.S. 
national security interests and development objectives. The 2014 
Quadrennial Defense Review (QDR) completed by the Department of Defense 
states that:
    Climate change poses another significant challenge for the United 
States and the world at large. As greenhouse gas emissions increase, 
sea levels are rising, average global temperatures are increasing, and 
severe weather patterns are accelerating. These changes, coupled with 
other global dynamics, including growing, urbanizing, more affluent 
populations, and substantial economic growth in India, China, Brazil, 
and other nations, will devastate homes, land, and infrastructure. 
Climate change may exacerbate water scarcity and lead to sharp 
increases in food costs. The pressures caused by climate change will 
influence resource competition while placing additional burdens on 
economies, societies, and governance institutions around the world. 
These effects are threat multipliers that will aggravate stressors 
abroad such as poverty, environmental degradation, political 
instability, and social tensions--conditions that can enable terrorist 
activity and other forms of violence.
    In late 2015, CIA Director John Brennan said the following while 
addressing the Center for Strategic and International Studies' Global 
Security Forum:
    Mankind's relationship with the natural world is aggravating these 
problems and is a potential source of crisis itself. Last year was the 
warmest on record, and this year is on track to be even warmer. Extreme 
weather, along with public policies affecting food and water supplies, 
can worsen or create humanitarian crises. Of the most immediate 
concern, sharply reduced crop yields in multiple places simultaneously 
could trigger a shock in food prices with devastating effect, 
especially in already-fragile regions such as Africa, the Middle East 
and South Asia. Compromised access to food and water greatly increases 
the prospect for famine and deadly epidemics.
    U.S. leadership is essential to addressing these broad and wide-
reaching challenges. The Global Climate Change Initiative (GCCI) is the 
principal U.S. tool for providing technical assistance to developing 
countries confronting those challenges, and it serves a compelling U.S. 
national security interest. GCCI programs not only benefit our efforts 
to protect our climate system, they promote our broader development 
objectives. Virtually all GCCI programs have important benefits for 
food security, health, sustainability, economic development, poverty 
reduction, and regional stability, all of which benefit the U.S. and 
global economy.


    Question 18. Do you intend to come to Congress for a specific 
authorization of the Green Climate Fund? Do you believe it is 
appropriate for Congress to have oversight over U.S. participation in 
the Green Climate Fund?

    Answer. The Green Climate Fund (GCF) has been established as a 
multilateral trust fund--much like other multilateral funds, such as 
the Climate Investment Funds--and has approved its first round of 
projects. The Department issued a grant to support the GCF from 
resources provided in the Department of State, Foreign Operations, and 
Related Programs Appropriations Act, 2016 (Div. K, P.L. 114-113) 
(SFOAA). Specifically, in the SFOAA, Congress provided $4.3 billion in 
funding for the Economic Support Fund (ESF), an account that is used to 
fund environmental programs and many other foreign assistance programs.
    The ESF account is a primary account through which the 
administration requested funding to support the Green Climate Fund 
(GCF) in the President's FY 2016 budget request. While over one-half of 
the account is earmarked for specific programs or activities, the 
remainder is available for other programs to carry out the ESF 
authority in the Foreign Assistance Act.
    The administration is using a portion of those unallocated funds 
for the GCF under the ESF authority and section 7060(c) of the SFOAA. 
While the SFOAA did not earmark funds specifically for the GCF, it also 
did not contain any restrictions on the use of FY 2016 funds for the 
GCF. Provision of ESF for environmental programs, including through 
grants to multilateral trust funds, is consistent with long standing 
practice.
    This administration takes its GCF oversight role seriously and we 
are working hard to ensure that GCF funding is used responsibly through 
our role on the GCF Board and our participation on two committees which 
oversee matters pertaining to oversight, the Ethics and Audit Committee 
and the Accreditation Committee. To that end, the GCF requires 
fiduciary standards and social and environmental safeguards that are 
among the strongest of all multilateral funds today. The Fund will have 
independent evaluation and integrity units, and Board proceedings and 
documents are among the most transparent of any multilateral mechanism.
    We would be pleased to brief your staff on transparency and good 
governance efforts at the GCF.


    Question 19. I understand that USAID is often tasked with on-the-
ground implementation of certain State Department plans and 
initiatives, and in order for USAID to carry out these implementation 
efforts, State grants USAID a portion of its programmatic funding.


   However, these specific proportions transferred from State to USAID 
        are not reflected in State's Congressional Budget 
        Justification. As a matter of fact, in preparing for this 
        hearing, I had to rely on ``guess-timates'' from the 
        Congressional Research Service on how much funding State 
        transfers to USAID for different line items in the budget. In 
        the interest of broader monitoring and evaluation, as well as 
        public transparency, why are these funds not clearly delineated 
        in either State or USAID's budget? Would it be feasible for 
        State and USAID to begin disclosing these amounts?


    Answer. The joint Department of State (State) and USAID budget 
includes the resources needed by both agencies to advance national 
security priorities related to diplomacy and development. State and 
USAID work closely both in developing budget requests, and in 
implementing programs in the year of appropriation. Decisions about 
implementing mechanisms and implementing partners are made in the year 
of appropriation, based on assessed needs on the ground, evolving 
circumstances (which USAID and State monitor), priorities, 
implementation capacity, and available implementation mechanisms. There 
are times in the field where State Department often relies on USAID to 
program and assist in planning the programming of resources, so the 
distinction of ownership over funding can play a relatively small role 
in how projects are designed and implemented.
    While there can be differences from year to year, historically 
USAID generally administers all of the Development Assistance, Global 
Health Programs-USAID, Food for Peace Title II, International Disaster 
Assistance, and Transition Initiatives accounts. In most years, USAID 
has fully administered funding in the Complex Crisis fund account as 
well.
    In addition, USAID fully implements the USAID Administrative 
Expense accounts: USAID Capital Investment Fund, USAID Development 
Credit Authority Admin Expenses, USAID Inspector General Operating 
Expenses, and USAID Operating Expenses accounts. USAID has historically 
administered 93 percent of the Economic Support Fund, 70 percent of 
Assistance for Europe, Eurasia, Central America, and 60 percent of the 
Global Health Program-State accounts.


                               __________

       Responses to Questions for the Record Submitted to Deputy 
    Secretary of State Heather Higginbottom by Senator John Barrasso

    Question 1. Is the administration committed to eliminating 
duplication and redundancies within the Department of State?

    Answer. The Department has launched efforts to streamline several 
internal operational processes--everything from service requests to 
travel. We expect these efforts to save staff time and result in cost-
savings. For example, last year, the Department embarked on an 
ambitious initiative to develop and deploy a cloud-based solution to 
deliver an integrated service management platform to maximize employee 
productivity and increase service efficiency. This consolidated system 
will replace over 400 stand-alone servers and numerous homegrown, one-
off solutions to more efficiently deliver, track, and measure 
enterprise services for over 150,000 State Department and other 
government agency employees at embassies and consulates worldwide. We 
are expanding the success of this approach overseas to our domestic 
operations to have a single, unified system worldwide.
    Throughout this administration, the Department of State has been 
committed to eliminating duplication and redundancies between the 
Department and other U.S. government departments and agencies. In this 
budget-constrained environment, the Department has continued strategic 
efforts to eliminate redundant services and operations at diplomatic 
facilities abroad with other U.S. government agencies.
    In order to reduce overall costs to the federal government, State 
and USAID jointly worked to consolidate administrative support services 
overseas carried out under the single administrative platform of the 
International Cooperative Administrative Support Services (ICASS) 
system. We first consolidated 15 administrative services to include 
services under General Services, Financial Management, and Human 
Resources. By selecting the most obvious redundant services and those 
most feasible to consolidate, we have successfully consolidated 97 
percent of these services. More recently, we have added other services 
to the list of those to be consolidated, including furniture, 
furnishings, appliances and equipment; travel management centers; 
administrative and travel voucher processing; and some aspects of human 
resource management of locally employed staff.
    To further illustrate the Department's commitment, in fiscal year 
2015 we continued to work with the interagency partners to calibrate 
consistent service standards for the provision of administrative 
services for all agencies at diplomatic facilities. Several service 
areas were assessed for efficiency and quality: Motor pool, HR 
Inquiries, Property Pick-up/Deliver, Printing, Travel Request, IT 
Helpdesk, IT/Telephone Devices, and Visitor Access Request.
    In addition, on September 21, 2015, the Government Accountability 
Office (GAO) acknowledged the Department's long standing and worldwide 
efforts to streamline administrative services worldwide by closing `` 
as implemented'' the third and final recommendation for Executive 
Action in GAO-12-317--Embassy Management: State Department and Other 
Agencies Should Further Explore Opportunities to Save Administrative 
Costs Overseas.


    Question 2. Does your budget eliminate any program? Please provide 
a complete list of programs eliminated in the administration's FY 2017 
budget for State and USAID.

    Answer. The Department does not propose the elimination of any 
Diplomatic Engagement programs in the FY 2017 Request.
    In the five-year period between FY 2012 and FY 2016 the non-OCO 
portion of the non-security D&CP operations account has been reduced by 
19 percent. The Department's FY 2017 Request includes a recommendation 
to increase funding in this account for the first time in five years. 
This request would still remain 11 percent below the FY 2012 level.
    The D&CP account is the primary source of funding for all of the 
administrative functions, excluding buildings and security, performed 
by State. The Department considers all of these functions to be 
essential to the security and diplomatic presence of the United States. 
At the same time the Department looks for every opportunity to reduce 
the cost to the taxpayer through rightsizing, identifying greater 
operational efficiencies, and having no tolerance for waste.


    Question 3. What are your recommendations to create efficiencies 
and streamline operations in the current organizational structure of 
the U.S. Department of State?

    Answer. We continue to look for opportunities to create 
efficiencies and streamline operations.
    The Department of State needs to build on the gains that have been 
made under the International Cooperative Administrative Support 
Services (ICASS) platform. Redundancies in 15 administrative services 
overseas through the ICASS system have been consolidated. These include 
General Services, Financial Management, and Human Resources. We have 
successfully consolidated 97 percent of services. The ICASS platform is 
the principal means by which the U.S. government provides and shares 
the cost of common administrative support services at overseas posts 
and by which we can build a strong, streamlined platform that supports 
our increasingly complex and financially constrained missions.
    The Department of State can create efficiencies and streamline 
operations by exploring additional potential alignments of other areas, 
such as Human Resources, Real Property, and the Foreign Affairs 
Technology Network, which will allow U.S. government personnel to 
collaborate effectively as we meet our foreign policy goals.
    Streamlined Human Resource operations for Locally Employed (LE) 
staff would promote more standardized personnel management across U.S. 
government agencies at our overseas missions. LE Staff human resource 
services that could be reviewed for alignment include position 
classification, pay grade assignment, recruitment, and performance 
evaluations.
    Aligning the ownership and management of real property overseas 
could eliminate duplicate systems, standardize the management of U.S. 
government assets worldwide, and increase the return-on-investment made 
for the infrastructure that is supporting the needs of the U.S. 
government overseas.
    Advances in technology allow for the possible alignment and 
coordination of email, and other IT services on the Department of State 
Foreign Affairs Network.


    Question 4. Please provide a comprehensive list of bureaus and 
offices at the U.S. Department of State that have not been authorized 
by Congress and the current number of personnel on staff in each of 
those bureaus and offices.

    Answer. As a general matter, the Secretary of State has the 
authority to direct and manage the Department of State in a manner 
conducive to carrying out the functions of the Secretary of State and 
the Department of State. Although Congress has on occasion established 
by statute certain positions within the Department, the majority of 
bureaus and other offices of the Department are not statutorily 
mandated, but are established by the Secretary and organized in a 
manner to promote the efficiency of the Department. Statutory mandates 
concerning the organization of the Department can raise practical 
difficulties in organizing the Department to effectively respond to 
evolving foreign affairs and national security challenges.


    Question 5. Please provide a comprehensive list of Special Envoys, 
Representatives and Coordinators at the U.S. Department of State and 
identify those positions created under Congressional authorization.

    Answer. Approximately twice a year, the website which lists Special 
Envoys, Special Representatives, Ambassadors at Large, Coordinators, 
Special Advisors, and other Senior Officials, http://www.state.gov/r/
pa/ei/rls/dos/1718.htm, is examined comprehensively for completeness 
and accuracy.
    Currently, the Department of State has the following listing of 
Special Envoys, Special Representatives, Ambassadors at Large, 
Coordinators, Special Advisors, and Other Senior Officials:


Special Envoys

   Special Presidential Envoy for the Global Coalition to Counter ISIL

   Special Presidential Envoy for Hostage Affairs

   Special Envoy and Coordinator for International Energy Affairs

   Special Envoy for Climate Change

   Special Envoy for Closure of the Guantanamo Detention Facility

   Special Envoy for Global Food Security

   Special Envoy for the Great Lakes Region of Africa and the 
        Democratic Republic of Congo

   Special Envoy for Holocaust Issues

   Special Envoy for the Human Rights of LGBT Persons

   Special Envoy for Israeli-Palestinian Negotiations

   Special Envoy for Libya

   Special Envoy to Monitor and Combat Anti-Semitism

   Special Envoy to the Organization of Islamic Cooperation

   Special Envoy for North Korean Human Rights Issues

   Special Envoy for Six-Party Talks U.S.

   Special Envoy to Sudan and South Sudan U.S. Special Envoy for Syria


Special Representatives

   Special Representative of the President for Nuclear 
        Nonproliferation

   Special Representative and Policy Coordinator for Burma

   Special Representative for Afghanistan and Pakistan

   Special Representative for the Arctic Region

   Special Representative for Biological and Toxin Weapons Convention 
        Issues

   Special Representative for Commercial and Business Affairs

   Special Representative for Global Health Diplomacy

   Special Representative for Global Partnerships

   Special Representative for International Labor Affairs

   Special Representative to Muslim Communities

   Special Representative of North Korea Policy

   Special Representative to the Organization for Security and 
        Cooperation in Europe (OSCE)

   U.S. Special Representative for the Central African Republic

   U.S. Special Representative to the Organization of Eastern 
        Caribbean States (OECS)

   U.S. Special Representative for Religion and Global Affairs

   U.S. Special Representative to Somalia


Ambassadors at Large


   Ambassador at Large and Coordinator for Counterterrorism

   Ambassador at Large and Coordinator of United States Government 
        Activities to Combat HIV/AIDS Globally

   Ambassador at Large for Global Criminal Justice

   Ambassador at Large for Global Women's Issues

   Ambassador at Large for International Religious Freedom

   Ambassador at Large to Monitor and Combat Trafficking in Persons


Coordinators


   U.S. Coordinator for International Communications and Information 
        Policy, with the rank of Ambassador

   Lead Coordinator for Iran Nuclear Implementation

   Coordinator and Special Envoy for the Center for Strategic 
        Counterterrorism Communications

   Coordinator for Cyber Issues

   Coordinator for Sanctions Policy

   Coordinator for Threat Reduction Programs

   Coordinator for U.S. Assistance to Europe, Eurasia, and Central 
        Asia

   Fissile Material Negotiator and Senior Cutoff Coordinator

   International Information Programs Coordinator

   Israel and the Palestinian Authority, U.S. Security Coordinator

   Senior Coordinator for International Information Technology 
        Diplomacy

   Senior Coordinator for Knowledge Management

   Special Coordinator for Tibetan Issues Transparency Coordinator


Special Advisors

   Science and Technology Adviser

   Special Adviser for Global Youth Issues

   Special Adviser for Holocaust Issues

   Special Advisor for International Disabilities Rights

   Special Advisor for Nonproliferation and Arms Control

   Special Advisor for Religious Minorities in the Near East and 
        South/Central Asia

   Special Advisor for Secretary Initiatives


Senior Advisor

   Senior Advisor


Senior Official

   U.S. Senior Official to the Asia-Pacific Economic Cooperation 
        (APEC)


Personal Representative

   Personal Representative for Northern Ireland Issues

   Senior Representative

   Senior Representative to Minsk


    Question 6. How could aid, as a tool for foreign policy, be 
allocated to more effectively address strategic priorities?

    Answer. The Department of State and USAID always work to ensure the 
funds are allocated to address strategic priorities. The development of 
the President's annual Budget Request for the Department of State and 
USAID begins at embassies and USAID missions around the world. These 
requests are based on country-specific priorities and strategies and 
are organized by mission objectives when they are submitted to the 
Department of State and USAID in Washington, DC. Department and USAID 
leadership then review the submissions from the embassies and missions 
overseas, and make tough decisions to ensure the request supports the 
most critical regional and global strategic priorities. In coordination 
with the Office of Management and Budget this results in a final budget 
request that advances the U.S. government's most important foreign 
policy, national security, and development objectives. The President's 
request reflects these priorities when it is submitted to Congress each 
year.
    Once an appropriation bill is passed, the allocation of funds must 
abide by funding directives included in the bill as well as the 
Statement of Managers, as required. Within these guidelines, the 
Department and USAID work to ensure the best allocation of resources in 
support of strategic foreign policy priorities.
    Along with other outcomes, the Foreign Assistance Data Review 
(FADR), currently underway, will allow the Department and its 
constituent offices to respond to demands for more and better data to 
manage activities, coordinate more effectively with others, make data-
driven decisions, and meet transparency commitments.


                               __________


                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
